No.

20=1344

ORIGINAL
filed

IN THE

MAR 0 3 m\

Supreme Court of the
United States
♦
Jeffrey T. Maehr,
Petitioner
v.
United States
Respondent

♦
On Petition for a Writ of Certiorari
The United States Court of Appeals
For the Federal Circuit

♦
Jeffrey T. Maehr
924 E. Stollsteimer Rd.,
Pagosa Springs, Colorado [81147]
(970) 781-9724

♦

l

Questions Presented
1. Can the IRS/United States government/Respondent and lower courts
consistently call U.S. Supreme Court standing case precedent (stare decisis) on the
definition of income, as “legally frivolous” and lacking legal merit, despite clear
conflicts between this court’s past rulings, and the lower courts continuing rulings,
and in IRS administrative actions in taxing, assessments and levies on untold
numbers of Americans, and not be bound by such standing precedent?
2. Can the IRS/United States government/Respondent refuse to follow this
court’s plain definition of “income” while ignoring the historically understood
definition of “income” declared by this court, and label said rulings as “legally
frivolous,” especially where Defendant’s own code fails to lawfully define “income?”
3. Can the IRS/United States government/Respondent, despite clear conflicts
between this court’s stare decisis and the lower courts rulings, merely presume
without clear, unambiguous evidence and definitions, that the 1913, 16th
Amendment authorized a “new” tax on millions of private American’s wages, salary
or compensation for service, contrary to this court’s claim otherwise, and use
statutory presumption alone to enforce such an unconstitutional tax on Americans?
4. Can the IRS/United States government/Respondent levy ALL Petitioner’s
(and all American’s similarly situated) social security, threaten all veteran’s
protected disability compensation, and all business assets based on an unverified
and unproven assessment, deny discovery of exculpatory documents, and effectively
destroy any American’s ability to survive?
5. Can all the courts/judges and all district attorneys, et al, routinely dismiss,
manipulate and control all access and proceedings of the Grand Jury process,
including denying access to private Americans, despite filing a NOTICE under
FRCP 6(a)(1) and 18 U.S.C. 4 of various crimes occurring to various authorities, and
contrary to this court’s US. v Williams 1992 decision on the purpose for the Grand
Jury, especially where evidence of criminal activity is presented?

u

LIST OF PARTIES
[ X ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the conrt whose judgment is the subject of this petition
is as follows:
TABLE OF CONTENTS
♦ QUESTIONS PRESENTED..................................................................................... n
4 INDEX TO APPENDICES....................................................................................... .IV
4 TABLE OF AUTHORITIES CITED ....................................................................... IV
4 OPINIONS BELOW................................................................................................... 1
4 JURISDICTION......................................................................................................... 1
♦ CONSTITUTIONAL AND STATUTORY PROVISIONS AT ISSUE................... 3
4 STATEMENT OF THE CASE.................................................................... *............ 3
♦ CASE HISTORY......................................................................................................... 4
4- REASONS FOR GRANTING THE WRIT............................................................... 10
4 FIRST CLAIM FOR RELIEF - DECLARATORY JUDGMENT ONE, LAWFUL
DEFINITION OF INCOME.................................................................................. 13
♦ SECOND CLAIM FOR RELIEF - PRE-ASSESSMENT PROOF OF DEBT
LACKING IN EVIDENCE FOR ASSESSMENTS MADE BY RESPONDENT
22
4- THIRD CLAIM FOR RELIEF - DECLARATORY JUDGMENT TWO ON THE
EXACT TRUE INTENT FOR THE 16th AMENDMENT......................................... 24
4- FOURTH CLAIM FOR RELIEF - DECLARATORY JUDGMENT THREE ON
LEVY AUTHORITY..................................................................................................... 27
4 FIFTH CLAIM FOR RELIEF - DECLARATORY JUDGMENT FOUR ON
PRIVATE AMERICAN’S ACCESS TO THE GRAND JURY PROCESS, AND, TO
CONVENE ONE OR MORE GRAND OR SPECIAL GRAND JURIES DENIED
PETITIONER................................................................................................................. 29
4 CONCLUDING ARGUMENT ON FACTS OF THE ISSUES.............................. 30

m

INDEX TO APPENDICES
APPENDIX A
Appeals Court Order and Judgment
APPENDIX B
Exhibit B1-B2 - IRS Mission Statement
APPENDIX C
Exhibits, C1-C5 - IRS refusal to answer questions on tax law and policy
APPENDIX D
Exhibit D - State Dept. Revocation of passport letter (complied with)
APPENDIX E
Exhibit E1-E2 - Social Security Statement
APPENDIX F
Exhibits F1-F2 - U.S. Statutes at Large - IR Code establishment
APPENDIX G
Exhibit G2 - IRS assessment discrepancy amounts
APPENDIX H
Exhibit H - Mother’s bank garnishment worksheet
TABLE OF AUTHORITIES CITED
STATUTES/CONSTITUTION/OTHER SOURCES CITED
P. 14

5 U.S.C. § 556(d)

Burden of proof (d) Except as otherwise provided by statute, the proponent of
a rule or order has the burden of proof. Any oral or documentary evidence
may be received, but the agency as a matter of policy shall provide for the
exclusion of irrelevant, immaterial, or unduly repetitious evidence. A
sanction may not be imposed or rule or order issued except on consideration
of the whole record or those parts thereof cited by a party and supported by
and in accordance with the reliable, probative, and substantial evidence. The
agency may, to the extent consistent with the interests of justice and the
policy of the underlying statutes administered by the agency, consider a
violation of section 557(d) of this title sufficient grounds for a decision
adverse to a party who has knowingly committed such violation or knowingly
caused such violation to occur. A party is entitled to present his case or
defense by oral or documentary evidence, to submit rebuttal evidence, and to
conduct such cross-examination as may be required for a full and true
iv

disclosure of the facts.
5 U.S.C. § 702. (See also 47 U.S.C. § 202(b)(6) (FCC); 15 U.S.C. § 77i(a) (SEC); 16
P. 13, 34
U.S.C. § 825a(b) (FPC))
The statutory right most relied on was the judicial review section of the
Administrative Procedure Act, which provided that “[a] person suffering legal
wrong because of agency action, or adversely affected or aggrieved by agency
P. 3,4

5th Amendment

No person shall be... deprived of life, liberty, or property, without due process
of law;
P.8

7th Amendment-

In suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved.
P. 3

14th Amendment

,..nor shall any state deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
16th Amendment

P. 10, 15, 16, 21, 25, 26, 27, 33, 16, 18, 21, 25

‘The Congress shall have power to lay and collect taxes on incomes, from
whatever source derived, without apportionment among the several States,
and without regard to any census or enumeration.”
P. 29

18 U.S. Code § 4 - Misprision of felony

Whoever, having knowledge ef the actual commission of a felony cognizable
by a court of the United States, conceals and does not as soon as possible
make known the same to some judge or otherperson in civil or military
authority under the United States, shall be fined under this title or
imprisoned not more than three years, or both. (Emphasis added).
P. 30

18 U.S. Code § 3332 - Powers and duties

(a) It shall be the duty of each such grand jury impaneled within any judicial
district to inquire into offenses against the criminal laws of the United States
v

alleged to have been committed within that district. Such alleged offenses
may be brought to the attention of the grand jury bv the court or by any
attorney appearing on behalf of the United States for the presentation of
evidence. Any such attorney receiving information concerning such an alleged
offense from any other person shall, if requested bv such other person.
inform the grand jury of such alleged offense, the identity of such other
person, and such attorney’s action or recommendation.
(b) Whenever the district court determines that the volume of business of the
special grand jury exceeds the capacity of the grand jury to discharge its
obligations, the district court may order an additional special grand jury for
that district to be impaneled. (Added Pub. L. 91-452, title I, § 101(a), Oct. 15,
1970, 84 Stat. 924.) (Emphasis added).
P. 23

26 U.S. Code §61 * Gross income defined

(a) General definition - Except as otherwise provided in this subtitle, gross
income means all income from whatever source derived, including (but not
limited to) the following items...
P. 28

26 U.S. Code §6331. Levy and distraint
(h) Continuing levy on certain payments, (l) In general;

If the Secretary approves a levy under this subsection, the effect of such levy
on specified payments to or received by a taxpayer shall be continuous from
the date such levy is first made until such levy is released. Notwithstanding
section 6334, such continuous levy shall attach to up to 15 percent of any
specified payment due to the taxpayer.
26 U.S. Code §6334, Property exempt from levy

.P. 8, 28

A(10) Certain service-connected disability payments. Any amount payable to
an individual as a service-connected (within the meaning of section 101(16) of
title 38, United- States Code) disability benefit under—
(A) subchapter II, III, IV, V, or VI of chapter 11 of such title 38, or
(B) chapter 13, 21, 23, 31, 32, 34, 35, 37, or 39 of such title 38.
P. 30

28 U.S.C. § 1631

Under 28 U.S.C. § 1631, when a federal court does not have jurisdiction over
a case, that court may transfer it to another federal court that does have
jurisdiction if the transfer is in the interest of justice.
vi

P. 15

45 Congressional Record, 4420 (1909)

“Mr. Heflin. ‘An income tax seeks to reach the unearned wealth of the
country and to make it pay its share.’ 4423 Mr. Heflin. ‘But sir, when you tax
a man on his income, it is because his property is productive. He pays out of
his abundance because he has got the abundance. > v
1913 Congressional Record, P. 3843, 3844; Senator Albert B. Cummins .. .P. 14, 25
“The word ‘income’ has a well defined meaning before the amendment of the
Constitution was adopted. It has been defined in all of the courts of this
country ... If we could call anything that we pleased income, we could
obliterate all the distinction between income and principal. The Congress
can not affect the meaning of the word ‘income’ by any legislation
whatsoever...”
Black's Law Dictionary, 6th Edition, page 500

P. 1, 4

“Due process of law implies the right of the person affected thereby to be
present before the tribunal which pronounces judgment upon the question of
life, liberty, or property, in its most comprehensive sense; to be heard, by
testimony or otherwise, and to have the right of controverting, by proof, every
material fact which bears on the question of right in the matter involved. If
any question of fact or liability be conclusively presumed against him, this is
not due process of law.”
Black’s Law Dictionary, 2nd Edition, “Income Tax”

P. 15

“A tax on the yearly profits arising from property, professions, trades and
offices.” See also 2 Steph. Comm 573. Levi v. Louisville, 97 Ky. 394, 30 S.W.
973. 28 L.RA.. 480; Parker Insurance Co., 42 La. Ann 428, 7 South. 599.”
“Derivation Code Sections of the Internal Revenue Code of 1939 and 1954" dated
January 21, 1992 found at
.P.26
http://sedm.org/Litigation/09-Reference/DerivOfCodeSectOfIRC.pd£
Internal Revenue Manual- 4.10.7.2.9.8 (01-01-2006)

P. 2, 12

1. Decisions made at various levels of the court system are considered to be
interpretations of tax laws and may be used by either examiners or taxpayers
to support a position.
2. Certain court cases lend more weight to a position than others. A case
decided by the U.S. Supreme Court becomes the law of the land and takes
vii

precedence over decisions of lower courts. The Internal Revenue Service must
follow Supreme Court decisions. For examiners, Supreme Court decisions
have the same weight as the Code.
President Taft’s letter to Congress, June 16th, 1909

P.26

In part... “I therefore recommend to the Congress that both Houses, by a twothirds vote, shall propose an amendment to the Constitution conferring the
power to levy an income tax upon the National Government without
apportionment among the States in proportion to population. This course is
much to be preferred to the one proposed of reenacting a law once judicially
declared to be unconstitutional. For the Congress to assume that the court
will reverse itself, and to enact legislation on such an assumption, will not
strengthen popular confidence in the stability of judicial construction of the
Constitution. It is much wiser policy to accept the decision and remedy the
defect by amendment in due and regular course.” (Emphasis added).
Stare Decisis

P. 1

‘To stand by that which is decided.’ The principal that the precedent
decisions are to be followed by the courts. To abide or adhere to decided cases.
It is a general maxim that when a point has been settled by decision, it forms
a precedent which is not afterwards to be departed from. An appeal court's
panel is "bound by decisions of prior panels. United States v. Washington,
872 F.2d 874, 880 (9th Cir. 1989). (.Moradi-Shalal v. Fireman’s Fund Ins.
Companies {1988) 46 Cal.3d 287, 296.) “According to the Supreme Court,
stare decisis “promotes the evenhanded, predictable, and consistent
development of legal principles, fosters reliance on judicial decisions, and
contributes to the actual and perceived integrity of the judicial process.” In
practice, the Supreme Court will usually defer to its previous decisions even
if the soundness of the decision is in doubt. A benefit of this rigidity is that a
court need not continuously reevaluate the legal underpinnings of past
decisions and accepted doctrines. Moreover, proponents argue that the
predictability afforded by the doctrine helps clarify constitutional rights for
the public.” Cornell University Law School.
Taxpayer Advocate Service - 2017 Annual Report to Congress - Volume One,
“152,413,600 individual returns filed”....................... .........................................

P. 13

Treasury Department’s Division of Tax Research publication, “Collection at Source
of the Individual Normal Income Tax,” 1941
P. 16
“For 1936, taxable income tax returns filed represented only 3.9% of the
viii

population . .. [Olnly a small proportion of the population of the United
States is covered by the income tax.”
Treasury Inspector General for Tax Administration—TIGTA. (Audit Report No.
P. 11
2012-30-066)
“The use of any such terminology is barred under a provision of the IRS
Restructuring and Reform Act of ’98, the audit said. Internal Revenue Service
(IRS) Restructuring and Reform Act of 1998 (RRA 98)1 Section 3707
prohibits the IRS from using Illegal Tax Protester or any similar
designations.”
Cases cited:
A.C. Aukerman Co. v. R.L. Chaides Const. Co., 960 F.2d 1020, 1037 (Fed. Cir. 1992)
.......................................................................................................................... P. 7, 14, 19
“This court has never treated a presumption as any form of evidence.”
Adarand Constructors, Inc. vPena 515 U.S. 200 (1995), Citing Justice O’Connor...
.....................................................................................................................................P. 10
“Remaining true to an 'intrinsically sounder' doctrine established in prior
cases better serves the values of Stare Decisis than would following a more
recently decided case inconsistent with the decisions that came before it: the
latter course would simply compound the recent error, and would likely make
the unjustified break from previously established doctrine complete. In such
a situation, 'special justification' exists to depart from the recently decided
case.”
Adkins v. Children’s Hospital, 261 U.S. at 558

P. 18

“In principle, there can be no difference between the case of selling labor and
the case of selling goods.”
American Communications Assn. v. Douds 339 U.S. 382 (1950)

P. 4, 11

“Speech may be fought with speech. Falsehoods and fallacies must be
exposed, not suppressed... The power to tax is not the power to destroy while
this Court sits... Thought control is a copyright of totalitarianism, and we
have no claim to it. It is not the function of our Government to keep the
citizen from falling into error; it is the function of the citizen to keep the
Government from falling into error.”
IX

Atkins vs. Lanning, D.C. Okl., 415 F.Supp. 186, 188. Black’s Law Dictionary, 6th
P. 10,17, 21
Edition
Color of law ^ "The appearance or resemblance, without the substance, of legal
right. Misuse of power... and made possible only because wrongdoers are
clothed with the authority...is action taken under ‘color of law.’
Berger v. United States, 95 U.S. 78, 88 55 S.Ct. 629, 633, 79 L.Ed. 1314
Boathe v. Terry, 713 F.2d 1405, at 1414 (1983)

P.2
P. 13

"The taxpayer must be liable for the tax. Tax liability is a condition precedent
to the demand. Merely demanding payment, even repeatedly, does not cause
liability".
Bowers v. Kerbaugh-Empire Co.r 271 U.S. 170; 46 S.Ct. 449 (1926)

P. 25

“It was not the purpose or effect of that amendment to bring any new subject
within the taxing power.”
Brushaber v. Union Pac. R.R. Co., 240 U.S. 1, 11, 12, 18 (1916).......... ...........P. 15
“We are of opinion, however, that the confusion is not inherent, but rather
arises from the conclusion that the 16th Amendment provides for a hitherto
unknown power of taxation; that is, a power to levy an income tax which,
although direct, should not be subject to the regulations of apportionment
applicable to all other direct taxes. And the far reaching effect of this
erroneous assumption will be made clear by generalizing the many
contentions advanced in argument to support it. . . But it clearly results that
the proposition and the contentions under it, if acceded to, would cause one
provision of the Constitution to destroy another; that is, they would result in
bringing the provisions of the Amendment exempting a direct tax from
apportionment into irreconcilable conflict with the general requirement that
all direct taxes be apportioned- Moreover, the tax authorized by the
Amendment, being direct, would not come under the rule of uniformity
applicable under the Constitution to other than direct taxes, and thus it
would come to pass that the result of the Amendment would be to authorize a
particular direct tax not subject either to apportionment or to the rule of
geographical uniformity, thus giving power to impose a different tax in one
state or states than was levied in another state or states. This result, instead
of simplifying the situation and making clear the limitations on the taxing
power, which obviously the Amendment must have been intended to
accomplish, would create radical and destructive changes in our
x

constitutional system and multiply confusion. Indeed, from another point of
view, the Amendment demonstrates that no such purpose was intended, and
on the contrary shows that it was drawn with the object of maintaining the
limitations of the Constitution and harmonizing their operation. We say this
because it is to be observed that although from the date of the Hylton Case,
because of statements made in the opinions in that case, it had come to be
accepted that direct taxes in the constitutional sense were confined to taxes
levied directly on real estate because of its ownership, the Amendment
contains nothing repudiation or challenging the ruling in the Pollock Case
that the word ‘direct’ had a broader significance, since it embraced also taxes
levied directly on personal property because of its ownership, and therefore
the Amendment at least impliedly makes such wider significance a part of
the Constitution ... [The Pollock court] recognized the fact that taxation on
income was in its nature an excise entitled to be enforced as such unless and
until it was concluded that to enforce it would amount to accomplishing the
result which the requirement as to apportionment of direct tax was adapted
to prevent, in which case the duty would arise to disregard the form and
consider the substance alone and hence subject the tax to the regulation of
apportionment which otherwise as an excise would not apply.”
Butchers'Union Co. v. Crescent City, Colorado, 111 U.S. 746, 757 (1883). . .P. 18, 19
“It has been well said that, the property which every man has in his own
labor, as it is the original foundation of all other property, so it is the most
sacred and inviolable ...”
Chas. C. Steward Mach. Co. v. Davis, (1937) No. 837

P. 15

“...historically an excise is a tax upon the enjoyment of commodities.”
P. 20

Cheek v U.S., 498 U.S. 197 (1991)

“The court described Cheek's beliefs about the income tax system [5] and
instructed the jury that if it found that Cheek ‘honestly and reasonably
believed that he was not required to pay income taxes or to file tax returns,’
App. 81, a not guilty verdict should be returned.”
Conner v. United States, 303 F. Supp. 1187 (1969) P. 1191: 47 C.J.S. Internal
Revenue 98, P. 226..................................................................................................- P. 15
“[2] Whatever may constitute income, therefore, must have the essential
feature of gain to the recipient. This was true when the 16th amendment
became effective, it was true at the time of the decision in Eisner v.
xi

Macomber, it was true under section 22(a) of the Internal Revenue Code of
1939, and it is true under section 61(a) of the Internal Revenue Code of 1954.
If there is no gain, there is no income.” “[l] ... It [income] is not synonymous
with receipts. Simply put, pay from a job is a ‘wage,’ and wages are not
taxable. Congress has taxed income, not compensation.”
Coppage v. Kansas, 236 U.S. 1, at 14, 23, 24 (1915)

P. 19

“Included in the right of personal liberty and the right of private property are
taking of the nature of each is the right to make contracts for the acquisition
of property. The chief among such contracts instead of personal employment,
by which in labor and other services are exchanged for money or other forms
of property. If this right be struck down or arbitrarily interfered with, there is
a substantial impairment of liberty in the long established constitutional
sense. The right is as essential to the laborer as to the capitalist, to the poor
as to the rich; for the vast majority of persons have no other artists away to
begin to acquire property, save by working for money... The right to follow
any lawful vocation and to make contracts is as completely within the
protection of the Constitution as the right to hold property free from
unwarranted seizure, or the liberty to go when and where one will. One of the
ways of obtaining property is by contract. The right, therefore, to contract
cannot be infringed by the legislature without violating the letter and spirit
of the Constitution. Every citizen is protected in his right to work where and
for whom he will. He may select not only his employer, but also his
associates.”
Crandall v. Nevada., 6 Wall 35, p. 46, 18 L Ed 745, p. 748

P. 20

"That the power to tax involves the power to destroy...; that the power to
destroy may defeat and render useless the power to create;
Del Vecchio v. Bowers, 296 U.S. 280, 286, 56 S.Ct. 190,193, 80 L.Ed. 229, (1935)...
.......................................................................................................................... P. 7, 14, 19
“[A] presumption is not evidence.”
P. 14
Doyle v. Mitchell Brother, Co., 247 US 179 (1918)
“We must reject in this case ... the broad contention submitted in behalf of
the Government that all receipts—everything that comes in—are income
within the proper definition of the term ‘income’ —”
Economy Plumbing & Heating Co., Inc., etal. v. the United States. No. 226-65. Dec.
P. 22
12, 1972
xii

“They (the revenue laws) relate to taxpayers, and not to nontaxpayers. The
latter are without their scope. No procedure is prescribed for nontaxpayers,
and no attempt is made to annul any of their rights and remedies in due
course of law.”
Edwards v. Keith, 231 F. 110 (2nd Cir. 1916)

P. 16

“The statute and the statute alone determines what is income to be taxed. It
taxes only income ‘derived’ from many different sources; one does not ‘derive
income’ by rendering services and charging for them.”
Eisner vMacomber, 252 US 189, 205—206 (1920)

P. 25

“The 16th Amendment must be construed in connection with the taxing
clauses of the original Constitution and the effect attributed to them before
the amendment was adopted.”
P. 25

Evans vs. Gore, 253 US 245, 263 (1920)

“.. . It manifestly disregards the fact that by the previous ruling it was
settled that the provisions of the 16th Amendment conferred no new power of
taxation.”
Federal Crop Insurance Corporation v. Merrill, 332 U.S. 380 (1947)

P.7

“The United States Supreme Court requires proof of authority in assertions
of power by anyone dealing with a person claiming government authority.”
P. 30
Fed. R. Crim. P. 6(a)(1)
When the public interest so requires, the court must order that one or more
grand juries be summoned.
P. 7

Fiction of Law

“An assumption or supposition of law that something which is or may be false
is true, or that a state of facts exists which has never really taken place. An
assumption, for purposes of justice, of a fact that does not or may not exist. A
rule of law which assumes as true, and will not allow to be disproved,
something which is false, but not impossible. Ryan v. Motor Credit Co., 30
N.J.Eq. 531, 23 A.2d607, 621. Blacks Law Dictionary, 6th Edition.”
P.4, 7, 9
Findings of Fact and Conclusions of Law
"The parties are entitled to know the findings and conclusions on all of the
xiii

issues of fact, law, or discretion presented on the record." citing Butz v.
Economou 438 U.S. 478, 98 S. Ct. 2894, 57 L. Ed. 2d 895, (1978). Federal
Maritime Commission v. South Carolina State Ports Authority, et aL
P. 15

Flint v. Stone Tracy Co., 220 U.S. 107, 31 S.Ct. 342, 349 (1911)
“Excises are taxes laid upon:
“(l.) the manufacture, sale or consumption of commodities within the
country,
“(2.) upon licenses to pursue certain occupations, and
“(3.) upon corporate privileges.”

P. 19

Flint, Supra at 151—152

“... [T]he requirement to pay such taxes involves the exercise of the privilege
and if business is not done in the manner described no tax is payable .. . [lit
is the privilege which is the subject of the tax and not the mere buying,
selling or handling of goods.”
Fortney v. US., C A.9 (Nev.) 1995, 59 F.3d 117

P. 11

“The United States Supreme Court, in Haines v. Kerner 404 U.S. 519 (1972)
stated that all litigants defending themselves must be afforded the
opportunity to present their evidence and that the Court should look to the
substance of the complaint rather than the form, and that a minimal amount
of evidence is necessary to support contention of lack of good faith.”
Galloway Farms, Inc. u. United States, 834 F.2d 998, 1000 (Fed. Cir. 1987) (citing
Zinger Constr. Co. u. United States, 753 F.2d 1053, 1055 (Fed. Cir. 1985)).... P. 30
“relating] to claims which are nonfrivolous and as such should be decided on
the merits."
Gamble v United States, No. 17-646, Justice Thomas concurring.

P. 1, 4, 10

“Our judicial duty to interpret the law requires adherence to the original
meaning of the text. For that reason, we should not invoke stare decisis
to uphold precedents that are demonstrably erroneous.” Justice Clarence
Thomas explained that, “if the Court encounters a decision that is
demonstrably erroneous—i.e., one that is not a permissible interpretation of
the text—the Court should correct the error, regardless of whether other
factors support overruling the precedent.” Justice Thomas lamented that
“proponents of stare decisis tend to invoke it most fervently when the
xiv

precedent at issue is least defensible,” and he lamented that the doctrine of
stare decisis “has had a ‘rachet-like effect,’ cementing certain grievous
departures from the law into the Court’s jurisprudence.”
Gov. A.E. Wilson on the Income Tax (16) Amendment, New York Times, Part 5,
P. 15
P. 13, February 26, 1911
“The poor man or the man in moderate circumstances does not regard his
wages or salary as an income that would have to pay its proportionate tax
under this new system.”
P. 11, 14, 21

Gould v. Gould, 245 U.S. 151

“In the interpretation of statutes levying taxes it is the established rule not to
extend their provisions by implication beyond the clear import of the
language used, or to enlarge their operation so as to embrace matters not
specifically pointed out. In case of doubt, they are construed most strongly
against the government and in favor of the citizen.” (See also Eidman v.
Martinez, 184 U.S. 578, 583; United States v. Wigglesworth, 2 Story, 369,
374; Mutual Benefit Life Ins. Co. v. Herold, 198 F. 199, 201, affd 201 F. 918;
Parkview Bldg. Assn. v. Herold, 203 F. 876, 880; Mutual Trust Co. v. Miller,
177 N.Y. 51, 57.” (Id at p. 265,).
Government Accountability Office, 1997 Report-

P. 32

“...we (1) asked IRS to provide us with available basic statistics on its use,
and misuse, of lien, Levy and seizure authority from 1993 to 1996;...while
IRS has some limited data about its use, and misuse, of collection
enforcement authorities, these data are not sufficient to show (1) the extent
of the improper use of hen, Levy, or seizure authority; (2) the causes of the
improper actions; or (3) the characteristics of taxpayers affected by improper
actions.” From GAOT97-155.html, September 23, 1997.
Grace Commission Report - the Presidents Private Sector Survey on Cost Control,
P. 11
P.12
“With two-thirds of everyone's personal income taxes wasted or not
collected, 100 percent of what is collected is absorbed solely by interest on the
Federal debt and by Federal Government contributions to transfer payments.
In other words, all individual income tax revenues are gone before one nickel
is spent on the services which taxpayers expect from their Government.”
Graves v. People ofState ofNew York, (1939) No. 478
xv

P. 17, 26

“The theory, which once won a qualified approval, that a tax on income is
legally or economically a tax on its source, is no longer tenable, New York ex
rel. Cohn v. Graves, 300 U.S. 308, 313,314 S., 57 S.Ct. 466, 467, 108 A.L.R.
721; Hale v. State Board, 302 U.S. 95, 108,58 S.Ct. 102, 106; Helver [306
U.S. 466, 481] ing v. Gerhardt, supra; cf. Metcalf& Eddy v. Mitchell, 269
U.S. 514,46 S. Ct. 172; Fox Film Corp. v. Doyal, 286 U.S. 123,52 S.Ct. 546;
James v. Dravo Contracting Co., page 149, 58 S.Ct. page 216; Helvering v.
Mountain Producers Corp., 303 U.S. 376,58 S.Ct. 623...”
P. 7

Hagans v. Lavine, 415 US 528, 533

“The law requires proof of jurisdiction to appear on the record of the
administrative agency and all administrative proceedings . .. When
jurisdiction is not squarely challenged it is presumed to exist. In the courts
there is no meaningful opportunity to challenge jurisdiction, as the court
merely proceeds summarily. However once jurisdiction has been challenged
in the courts, it becomes the responsibility of the plaintiff to assert and prove
said jurisdiction ...”
Hassett v. Welch.., 303 US 303, pp. 314-315, 82 L Ed 858. (1938)

P. 11, 21

“[I]f doubt exists as to the construction of a taxing statute, the doubt should
be resolved in favor of the taxpayer ...”
Heiner v. Donnan, 285, US 312 (1932) and New York Times v. Sullivan, 376 US 254
P. 7, 14, 20
(1964)
“The power to create [false] presumptions is not a means of escape from
constitutional restrictions.”
Helvering v. Edison Bros. Stores, 133 F2d 575.(1943)

P. 14

“The Treasury cannot by interpretive regulations, make income of that which
is not income within the meaning of revenue acts of Congress, nor can
Congress, without apportionment, tax as income that which is not income
within the meaning of the 16th Amendment.”
Jack Cole Company v. Alfred T, MacFarland, Commissioner, 206 Tenn. 694, 337
P. 19
S.W.2d 453 Sup. Court of Tennessee (1960)
“Since the right to receive income or earnings is a right belonging to every
persons, this right cannot be taxed as privilege.” (See also Jerome H. Sheip
Co. v. Amos, 100 Fla. 863,130 So. 699, 705 [1930J; RedGeld v. Fisher, 135 Or.
xvi

180, 292 P. 813, 819 [Ore. 1930]; Sims v. Ahrens, 167 Ark. 557, 271 S.W. 720,
733 [1925]; O’Keefe v. City ofSomerville, 190 Mass. 110, 76 N.E. 457, 458
[1906]).
Jerome H. Sheip Co. v. Amos, 130 So. 699, 705

P. 19

"A man is free to lay hand upon his own property. To acquire and possess
property is a right, not a privilege. See section 1, Declaration of Rights,
Const. The right to acquire and possess property cannot alone by made the
subject of an excise (4 Cooley, Taxation [4th Ed.3 p. 3382); nor, generally
speaking, can an excise be laid upon the mere right to possess the fruits
thereof, as that right is the chief attribute of ownership. See Washington v.
State, 13 Ark. 753; Thompson v. Kreutzer, 112 Miss. 165, 72 So. 891; 26
R.C.L. 236; Thompson v. McLeod, 112 Miss. 383, 73 So. 193, L.R.A. 1918C,
893, Ann.Cas. 1918A, 674."
Joseph Nash v. John Lathrop, 142 Mass. 29, at 35

P. 13

“Every citizen is presumed to know the law thus declared .. .”
Kazubowski v. Kazubowski, 45 DJ.2d 405, 259 N.E.2d 282. 290

. . P. 4

“An orderly proceeding wherein a person ... has an opportunity to be heard
and to enforce and protect his rights before a court having power to hear and
determine the case.”
Laureldale Cemetery Assn. v. Matthews, 47 Atlantic 2d. 277 (1946)

P. 16

“... Reasonable compensation for labor or services rendered is not profit.. .”
Liteky v. U.S., 114 S.Ct. 1147, 1162 (1994)

P. 31

In 1994, the U.S. Supreme Court held that "Disqualification is required if an
objective observer would entertain reasonable questions about the judge's
impartiality. If a judge's attitude or state of mind leads a detached observer
to conclude that a fair and impartial hearing is unlikely, the judge must be
disqualified."
P. 15

Lucas v. Earl, 281 U.S. Ill (1930)

“The rlaim that salaries, wages, and compensation for personal services are
to be taxed as an entirety and therefore must be returned by the individual
who has performed the services ... is without support, either in the language
xvii

of the Act or in the decisions of the courts construing it. Not only this, but it
is directly opposed to provisions of the Act and to regulations of the U.S.
Treasury Department, which either prescribed or permits that compensations
for personal services not be taxed as a entirety and not be returned by the
individual performing the services. It has to be noted that, by the language of
the Act, it is not salaries, wages or compensation for personal services that
are to be included in gross income. That which is to be included is gains,
profits, and income derived from salaries, wages, or compensation for
personal services.”
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 <1992)

P. 34

The Court refers to injury in fact as “an invasion of a legally-protected
interest,” but in context...it is clear the reference is to any interest that the
Court finds protectable under the Constitution, statutes, or regulations;
Main v. Thiboutot, 100 S. Ct. 2502 (1980). Cf. (See also Bialac v. Harsh, U.S., 34
L.Ed.2d 512, 463 F.2d 1185 (9th Cir. 1972)............................................................... P.7
“The law provides that once State and Federal jurisdiction has been
challenged, it must be proven.”
P. 31

Mattox v. U.S. 156 U.S. 237, 243 (1895)
“We are bound to interpret the Constitution in the light of the law as it
existed at the time it was adopted.”

McNally v. US., 483 U.S. 350, 371-372, (1987), quoting U.S. v. Holzer, 816 F.2d.
P. 24
304, 307 (1987)
“Fraud in its elementary common law sense of deceit - and this is one of the
meanings that fraud bears in the statute, see United States v. Dial, 757 F.2d
163, 168 (7th Cir. 1985) - includes the deliberate concealment of material
information in a setting of fiduciary obligation. A public official is a fiduciary
toward the public, including, in the case of a judge, the litigants who appear
before him, and if he deliberately conceals material information from them,
he is guilty of fraud.
>9 »

P. 15
Merchants Loan & Trust Co. v. Smietanka, 225 U.S. 509, 518, 519. (1923)
“Income, as defined by the Supreme Court means, ‘gains and profits’ as a
result of corporate activity and ‘profit gained through the sale or conversion
of capital assets.’ ” (Also see 399. Doyle v. Mitchell Bros. Co. 247 U.S. 179,
Eisner v. Macomber 252 U.S. 189, Evans v. Gore 253 U.S. 245, Summers v.
xviii

Earth Island Institute, No. 07463 [U.S., March 3, 2009] [citing Bender v.
Williamsport Area School Dist., 475 U. S. 534, 541 {1986}].
New York Life Ins. Co. v. Gamer, 303 U.S. 161, 171, 58 S.Ct. 500, 503, 82 L.Ed. 726
P. 7, 14, 20
(1938)
“[A presumption] cannot acquire the attribute of evidence ...”)
New York Times, Tuesday, August 3, 1909 edition, P. 1, if1 Article................... P. 20
“The only interruption to his speech was a query by Representative J. T.
Glover of Birmingham, who wanted to know if the amendment would affect
salaries. Col. Sam Will John, also of Birmingham, responded that it would
not...”
Otis Mcdonald, et al., Petitioners, v City of Chicago, Illinois, et al. No. 08-1521.
P.4
United States Supreme Court, June 28, 2010..................................................
“The first, and most basic, principle established by our cases is that the
rights protected by the Due Process Clause are not merely procedural in
nature. At first glance, this proposition might seem surprising, given that the
Clause refers to "process." But substance and procedure are often deeply
entwined. Upon closer inspection, the text can be read to "impos[e] nothing
less than an obligation to give substantive content to the words 'liberty' and
'due process of law,'" Washington v. Glucksberg, 521 U.S. 702, 764, 117
S.Ct. 2258, 117 S.Ct. 2302, 138 L.Ed.2d 772 (1997) (Souter, J., concurring in
judgment), lest superficially fair procedures be permitted to "destroy the
enjoyment" of life, liberty, and property, Poe v. Ullman, 367 U.S. 497, 541, 81
S.Ct. 1752, 6 L.Ed.2d 989 (1961).”
Peck & Co. v. Lowe, 247 U.S. 165 (1917), Brief for the Appellant at 11, 14-15.. P. 25
"The Sixteenth Amendment, although referred to in argument, has no real
bearing and may be put out of view. As pointed out in recent decisions, it does
not extend the taxing power to new or excepted subjects..."
P.7

Peacock v. Williams 110 Fed. 910
Frivolous.' "An answer or plea is called 'frivolous ' when it is clearly
insufficient on its face, and does not controvert the material points of the
opposite pleading...

Pollock v. Farmers'Loan & Trust co., 158 U.S. 601, 635*637 (1895). P. 15, 16, 26, 27
“We have considered the act only in respect of the tax on income derived from
xix

real estate, and from invested personal property, and have not commented on
so much of it as bears on gains or profits from business, privileges, or
employments, in view of the instances in which taxation on business,
privileges, or employments has assumed the guise of an excise tax and been
sustained as such. It is evident that the income from realty formed a vital
part of the scheme for taxation embodied therein. If that be stricken out, and
also the income from all investments of all kinds, it is obvious that by far the
largest part of the anticipated revenue would be eliminated, and this would
leave the burden of the tax to be borne by professionals, trades,
employments, or vocations; and in that wav what was intended as a tax on
canital would remain in substance as a tax on occupations and labor. We
cannot helieve that such was the intention, of Congress. We do not mean to
say that an act laying by apportionment a direct tax on sill real estate and
personal property, or the income thereof, might not lay excise taxes on
business, privileges, employments and vocations. But this is not such an act;
and the scheme must be considered as a whole.” (Emphasis added).
Porter v. Aetna Cas. & Sur. Coi, 370 U.S. 159 (1962)

P. 2, 8, 28

“Certiorari was granted in view of the importance of the question in the
administration of the Act. 368 U.S. 937, 82 S.Ct. 384, 7 L.Ed.2d 337. We
agree with the District Court that the funds involved here are exempt under
the statute; therefore we reverse the judgment below.... This distinction was
adopted by the Congress when the Act was amended in 1935, 49 Stat. 607,
609, to provide, inter aha, that such payments shall be exempt 'either before
or after receipt by the beneficiary' but that the exemption shall not 'extend to
any property purchased in part or wholly out of such payments.'3 Thereafter
in Lawrence v. Shaw, 300 U.S. 245, 57 S.Ct. 443, 81 L.Ed. 623 (1937), the
Court held that bank credits derived from veterans' benefits were within the
exemption, the test being whether as so deposited the benefits remained
subject to demand and use as the needs of the veteran for support and
maintenance required.
Schroeder v. New York; 371 U.S. 208, 212

P. 12

"In this case the sole question is whether there has been a taking of property
without that procedural due process that is required by the Fourteenth
Amendment. We have dealt over and over again with the question of what
constitutes ‘the right to be heard’ within the meaning of procedural due
process. See Mullane v. Central Hanover Trust Co., 339 U.S. 306,314.”
Schulz v. IRS and Anthony Roundtree, U.S. Court of Appeals, Docket No. 04-0196P.4
cv, P. 10, lines 10-17
xx

“Any legislative scheme that denies subjects an opportunity to seek judicial
review of administrative orders except by refusing to comply, and so put
themselves in immediate jeopardy of possible penalties ‘so heavy as to
prohibit resort to that remedy’ (Oklahoma Operating Co. v. Love, 252 U.S.
331, 333 [1920]), runs afoul of the due process requirements of the Fifth and
Fourteenth Amendments.”
Shirley Peterson, former IRS Commissioner, Southern Methodist University’s Tax
Policy Lecture, Published by Freeman Education Associations 141 E. 31st St., Suite
P. 32
F, Tulsa, OK 74145
“Eight decades of amendments and accretions to the Code have produced a
virtually impenetrable maze. The rules are unintelligible to most citizens including those holding advanced degrees and including many who specialize
in tax law. The rules are equally mysterious to many government employees
who are charged with administering and enforcing the law. The need for
simplification is apparent from sheer weight of the Internal Revenue Code
and its regulations, which now comprise eight volumes of fine print.”
(Emphasis added).
Sims vs. Ahrens, 167 Ark. 557; 271 S.W. 720, 730, 733 (1925)

P. 19

"The legislature has no power to declare as a privilege and tax for revenue
purposes, occupations that are of common right... “The right to engage in an
employment, to carry on a business, or pursue an occupation or profession not
in itself hurtful or conducted in a manner injurious to the public, is a common
right, which, under our Constitution, as construed by all our former
decisions, can neither be prohibited nor hampered by laying a tax for State
revenue on the occupation, employment, business or profession. ... Thousands
of individuals in this State carry on their occupations as above defined who
derive no income whatever therefrom.”
Slaughter House, 83 U.S. 36, at 127 (1873)

P. 17, 19

“Property is everything which has an exchangeable value, in the right of
property includes the power to dispose of that according to the will of the
owner. Labor is property, and as such merits protection. The right to make it
available is next in importance to the rights of life and liberty. It lives to a
large extend the foundation of most other forms of property, and of all solid
individual and national prosperity.”
Sniadach v. Family Finance Corp., (1969)
xxi

P. 12

Held: Wisconsin's prejudgment garnishment of wages procedure, with its
obvious taking of property without notice and prior hearing, violates the
fundamental principles of procedural due process. Pp. 339-342.
P.26

So. Carolina v. Baker; 485 U.S. 505 (1988)

"[T]he sole purpose of the Sixteenth Amendment was to remove the
apportionment requirement for whichever incomes were otherwise taxable.
45 Cong. Rec. 2245-2246 (1910); id. at 2539; see also Brushaber v. Union
Pacific R. Co., 240 U. S. 1, 240 U. S. 17-18 (1916)"
P. 15

Southern Pacific v. Lowe, U.S. 247 F. 330. (1918)

“... [I]ncome; as used in the statute should be given a meaning so as not to
include everything that comes in. The true function of the words ‘gains’ and
‘profits’ is to limit the meaning of the word ‘income.
9 >9

Spreckels Sugar Refining Co. v. McClain, 192 U.S. 397 (1904)

P. 22

" ....the well settled rule that the citizen is exempt from taxation unless the
same is imposed by clear and unequivocal language, and that, where the
construction of a tax law is doubtful, the doubt is to be resolved in favor of
those upon whom the tax is sought to be laid...”
Springer V. United States 102 U.S. 586, 26 L.Ed. 253, 1880.............P. 15, 16, 21, 25
In Springer, “gains, profit and income” are all in the same category,
understood to be something “derived from” some taxable activity, which
categorizes such “gain, profit or income” as an excise tax (at #48) on privilege:
First paragraph; P. 3, #1; P. 4, #5... “The tax on incomes...” where this term
“incomes” is equated to “gains and profits” used throughout this case, and
nowhere includes wages as the Springer court clearly pointed out at #40.
Standard v. Olsen, 74 S. Ct. 768; Title 5 U.S.C., Sec. 556 and 558 (b)

P. 7

“No sanctions can be imposed absent proof of jurisdiction.”
Staples v. US, 21 F Supp 737 U.S. Dist. Ct. ED PA, 1937]

P. 15

“Income within the meaning of the Sixteenth Amendment and Revenue Act,
means ‘gains’.. . and in such connection ‘gain’ means profit. . . proceeding
from property, severed from capital, however invested or employed and
coming in, received or drawn by the taxpayer, for his separate use, benefit
xxii

and disposal... Income is not a wage or compensation for any type of labor.”
Stratton’s Independence, Ltd. v. Howbert, 231 US 399, 414 (1913)

P. 15, 21

“As has been repeatedly remarked, the corporation tax act of 1909 was not
intended to be and is not, in any proper sense, an income tax law. This court
had decided in the Pollock case that the income tax law of 1894 amounted in
effect to a direct tax upon property, and was invalid because not apportioned
according to populations, as prescribed by the Constitution. The act of 1909
avoided this difficulty by imposing not an income tax [direct], but an excise
tax [indirect] upon the conduct of business in a corporate capacity, measuring
however, the amount of tax by the income of the corporation .. . [Additional
cites omitted.]”
Summers v. Earth Island Institute, No. 07-463 (U. S., March 3, 2009) (citing Bender
v. Williamsport Area SchoolDist., 475 U. S. 534, 541 [1986])
P. 7
“It is well established that the court has an independent obligation to assure
that standing exists, regardless of whether it is challenged by any of the
parties.”
Taft v. Bowers, 199, 278, 470, 481 U.S. 73 L.Ed. 460, 1929

P. 14, 15, 18, 25

“The meaning of ‘income’ in this amendment is the gain derived from or
through the sale or conversion of capital assets- from labor or from both
combined; not a gain accruing to capital or growth or increment of value in
the investment, but a gain, a profit, something of exchangeable value,
proceeding from the property, severed from the capital however employed'
and coming in or being ‘derived,’ that is, received or drawn by the recipient
for his separate use, benefit, and disposal.”
Taft v. Bowers, supra

P. 26

"[T]he settled doctrine is that the Sixteenth Amendment confers no power
upon Congress to define and tax as income without apportionment something
which theretofore could not have been properly regarded as income."
Traveler's lndem. Co. v. United States, 72 Fed. Cl. 56, 59 (Fed. Cl. 2006):. . .P. 9, 13
The court had two choices under Traveler's/”To dismiss the action as a
matter of law ...," OR "to transfer it to another federal court that would have
jurisdiction." (ORDER, P. 3, last paragraph).
xxiii

U.S. Appeals Court, 10th Circuit, case #16-1204, Reverse and Remand

P. 28

“However, here the government has not directly levied Appellant’s VA
benefits, and it suggests that it may do indirectly what it may not do
directly—that it may wait until exempt VA disability benefits have been
directly deposited into Appellant’s bank account and then promptly obtain
them through a levy on all funds in the bank account, despite their
previously exempt status. The government cites no authority to support this
argument, and the few cases we have found adopting such a rule, see, e.g.,
Calhoun v. United States, 61 F.3d 918 (Fed. Cir. 1995) (unpublished table
decision); United States v. Coker, 9 F. Supp. 3d 1300, 1301-02 (S.D. Ala.
2014); Hughes v. IRS, 62 F. Supp. 2d 796, 800-01 (E.D.N.Y. 1999), have not
considered whether this result is consistent with the Supreme Court’s opinion
in Porter Aetna Casualty & Surety Co., 370 U.S. 159 (1962), or with 38
U.S.C. § 5301’s prohibition against the levy of veterans’ benefit payments
either before or after receipt by a beneficiary.” (Appeals Court case #16-1204,
Reverse and Remand).
U.S. v. Balard, 535, 575 F. 2D 400 (1976); (see also Oliver v. Halstead, 196 VA 992;
P. 13, 15, 23
86 S.E. Rep. 2D 858)
“Gross income and not ‘gross receipts’ is the foundation of income tax liability
. . . The general term ‘income’ is not defined in the Internal Revenue Code ...
‘gross income’ means the total sales, less the cost of goods sold, plus any
income from investments and from incidental or outside operations or
sources. There is a clear distinction between ‘profit’ and ‘wages’ or
‘compensation for labor.’ Compensation for labor cannot be regarded as profit
within the meaning of the law ... The word profit is a different thing
altogether from mere compensation for labor . .. The claim that salaries,
wages and compensation for personal services are to be taxed as an entirety
and therefore must be returned by the individual who performed the services
... is without support either in the language of the Act or in the decisions of
the courts construing it and is directly opposed to provisions of the Act and to
Regulations of the Treasury Department...”
P. 15
U.S.C.A. Const. Am 16
“There must be gain before there is ‘income’ within the 16th Amendment.”
US. v. La Salle N.B., 437 U.S. 298 (1978)...........................................................

P. 31

“The IRS at all times must use the enforcement authority in good-faith
pursuit of the authorized purposes of Code.”
US. v. Mason, 412 U.S. 391, 399-400 (1973)......................................................
xxiv

P. 12

“No one should be punished unnecessarily for relying upon the decisions of
the U.S. Supreme Court.”
U.S. v. Morton Salt Co., 338 U.S. 632, 654

P. 2, 31

“The Court is free to act in a judicial capacity, free to disagree with the
administrative enforcement actions if a substantial question is raised or the
minimum standard is not met. The District Court reserves the right to
prevent the ‘arbitrary’ exercise of administrative power, by nipping it in the
bud.”

U.S. v. Tweel, 550 F. 2d. 297, 299, 300 (1977). (See also U.S. v. Prudden, 424 F.2d
P. 24
1021, 1032; Carmine v. Bowen, 64 A. 932.)
“Silence can only be equated with fraud where there is a legal or moral duty
to speak, or where an inquiry left unanswered would be intentionally
misleading ... We cannot condone this shocking behavior by the IRS. Our
revenue system is based on the good faith of the taxpayer and the taxpayers
should be able to expect the same from the government in its enforcement
and collection activities. If that is the case we hope our message is clear. This
sort of deception will not be tolerated and if this is routine it should be
corrected immediately.”
United States v. John H Williams, Jr., 504 U.S. 36 (112 S.Ct. 1735, 118 L.Ed.2d
352) No. 90-1972., Argued: Jan. 22, 1992. Decided: May 4, 1992. Opinion, SCALIA .
...................................................................................................................... P. 5, 6, 29, 30
“This Court has, of course, long recognized that the grand jury has wide
latitude to investigate violations of federal law as it deems appropriate and
need not obtain permission from either the court or the prosecutor. See, e.g.,
id., at 343, 94 S.Ct., at 617; Costello v. United States, 350 U.S. 359, 362, 76
S.Ct. 406, 408, 100 L.Ed. 397 (1956); Hale v. Henkel, 201 U.S. 43, 65, 26
S.Ct. 370, 375, 50 L.Ed. 652 (1906)... the grand jury is not merely an
investigatory body; it also serves as a ‘protector of citizens against arbitrary
and oppressive governmental action.’ United States v. Calandra, 414 U.S., at
343, 94 S.Ct., at 617. In fact, the whole theory of its function is that it
belongs to no branch of the institutional Government, serving as a kind of
buffer or referee between the Government and the people. See Stirone v.
United States, 361 U.S. 212, 218 (i960); Hale v. Henkel, 201 U.S. 43, 61
(1906); G. Edwards, The Grand Jury 28 32 (1906).”
Valley Forge Christian College v. Americans United, 454 U.S. 464, 472 (1982)
P. 34
XXV

“...the Court...has now settled upon the rule that, “at an irreducible
minimum,” the constitutional requisites under Article III for the existence of
standing are that the plaintiff must personally have suffered some actual or
threatened injury that can fairly be traced to the challenged action of the
defendant, and that the injury is likely to be redressed by a favorable
decision. {See also Allen v. Wright, 468 U.S. 737, 751 (1984); Schlesinger v.
Reservists Comm. to Stop the War, 418 U.S. 208, 225-226 (1974)).
Vaughn v. State, 3 Tenn.Crim.App. 54, 456 S.W.2d 879, 883

P. 8, 13

“Aside from all else, ‘due process’ means fundamental fairness and
substantial justice.”
Williams V. Dorsaneo III, Texas Litigation Guide, Vol. 4, Ch. 55 (Matthew Bender
& Company, Inc.- New York, 2016), p. 55-5
P. 24
Constructive fraud occurs when there is a breach of a legal or equitable duty
that, irrespective of guilt, the law declares fraudulent because of its tendency
to deceive others, to violate confidence, or to injure public interests ... An
example of constructive, as opposed to actual, fraud involves the failure to
disclose facts when there is a duty to make a disclosure...
Winters v. New York, 333 U.S. 507, 515-16 (1948)

P. 15, 21

“The vagueness may be from uncertainty in regard to persons within the
scope of the act...”
Wyoming v. Oklahoma, 502 U.S. 437, 451 (1982)

P.2

“But where claims are of sufficient seriousness and dignity, in which
resolution by the judiciary is of substantial concern, the Court will hear
them.” (See also Texas v. New Mexico, 462 U.S. 554 [1983]; California v.
West Virginia, 454 U.S. 1027 [1981]; Arizona v. New Mexico, 425 U.S. 794
[1976]).

xxvi

PETITION FOR WRIT OF CERTIORARI
Petitioner, Jeffrey T. Maehr, respectfully prays that a Writ of Certiorari issue to
review long-standing and long resisted but ignored self-evident U.S. Supreme Court
stare decisis (P. viii) precedent listed herein, and Congressional and other
transparent testimony directly affecting the numerous lower court’s “demonstrably
erroneous” (Gamble v U.S., P. xiv) rulings on the income tax presumptions
questioned herein. These issues are fundamentally constitutional and morally
critical to this Republic.
OPINIONS BELOW
[X] For cases from Federal Courts: this case ...
The opinion of the United States Court of Appeals appears at Appendix A to the
Petition and,
[X] No rehearing was filed or required for this Petition to proceed forward, and is
[ ] reported at; or,
[ ] has been designated for publication but is not yet reported; or,
[X] unpublished.
JURISDICTION
-The date on which the United States Court of Appeals mandate issued on
October 19, 2020 and a copy of the order appears at Appendix A.
-The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(l), and
timely filed under Rule 13.
- This is the court of original jurisdiction on these issues.
-Lower District and Appellate court rulings and Respondent’s administrative
actions on these issues run counter to the U.S. Supreme Court case precedent
provided herein, creating major constitutional questions that must be resolved.
-Dueprocess e/Vaw (Blacks Law Dictionary, 6th Edition, P. vii) on
constitutional and legal questions has been, and is being, denied Petitioner, and all
similarly situated Americans are equally damaged and misled on the relevant
Page 1 of 35

issues.
- Discovery of exculpatory evidence has been obstructed, and Petitioner’s
right to redress has been consistently denied.
•This court stated when this rises to the level of genuine “seriousness and
dignity”, and is vitally important to the American public, that “the court will hear
them”. (Wyoming v. Oklahoma, P. xxvi).
- “Certiorari was granted in view of the importance of the question in the
administration of the Act." Porter v. Aetna Cas. & Sur. Co., (P. xx).
- “This Court has a special obligation to administer justice impartially and to
set an example of impartiality for other courts to emulate. When the Court appears
to favor the Government over the ordinary litigant, it seriously compromises its
ability to discharge that important duty... the interest of the United States 'in a
criminal prosecution is not that it shall win a case, but that justice shall be done.”
Berger v. United States, (P. ix).
- Title 18 & Title 42 NOTICE of crimes believed to be committed.
- This court is “free to act in a judicial capacity, free to disagree with the
administrative enforcement actions if a substantial question is raised or the
minimum standard is not met.” (US. v. Morton Salt Co., P. xxv).
- To the very best of Petitioner’s knowledge and belief, these questions and
evidence have never been properly adjudicated in any lower court, and only in this
honorable court’s original rulings which are being ignored, and are ripe for lawful
judicial review and constitutional clarification.
- This is not a political, left or right, conservative or liberal, party spirit, tax
protest, or opinion based issue. It IS a constitutional, original intent, rule of law
and case precedent issue that affects at least 150+ million Americans at this time.

-INTERNAL REVENUE MANUAL 4.10.7.2.9.8 (01-01-2006)
Importance of Court Decisions.'
1. Decisions made at various levels of the court system are considered to be
interpretations of tax laws and may be used by either examiners or taxpayers
to support a position.
2. Certain court cases lend more weight to a position than others. A case
decided by the U.S. Supreme Court becomes the law of the land and takes
Page 2 of 35

precedence over decisions of lower courts. The Internal Revenue Service must
follow Supreme Court decisions. For examiners, Supreme Court decisions
have the same weight as the Code. (P. xv).
-“We must note here, as a matter of judicial knowledge, that most lawyers
have only scant knowledge of the tax laws.” Bursten v. U.S., 395 f 2d 976, 981 (5th.
Cir. 1968).
-Attorney Richard C. DiMare, Founder of the American Association for
Lockean Liberty, Inc. states“...the American legal community (needs to) answer to the silent distress of
millions of financially overburdened working people. Because of the unique
structure of our legal system, American lawyers have a moral and legal duty
to enforce certain tax constraints on government that would favor workers,
and lawyers are failing miserably. If U.S. tax attorneys wake up and get
serious about their Constitutional oaths, there is no good reason for the
wages and the salaries of natural persons to be taxed as income.”
CONSTITUTIONAL AND STATUTORY PROVISIONS AT ISSUE
U.S. Constitution. 5th Amendment - No person shall be... deprived of life,
liberty, or property, without due process of law;
U.S. Constitution, 7th Amendment - In Suits at common law, where the value
in controversy shall exceed twenty dollars, the right of trial by jury shall be
preserved...
U.S. Constitution. 14th Amendment - nor shall any state deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.
U.S. Constitution, 16th Amendment; The Congress shall have power to lay
and collect taxes on incomes, from whatever source derived, without apportionment
among the several States, and without regard to any census or enumeration.
26 U.S.C.—Law proving income tax liability vague; the lawful original
definition of income defined ONLY by this court but ignored by lower courts; the
authority to assess and tax any asset of any American as lawful income without
evidence in fact.
STATEMENT OF THE CASE
Reinpr nnw the fourth Petition to this honorable court with these
Page 3 of 35

constitutional issues never adjudicated since this courts original rulings, yet
ignored by lower court’s “demonstrably erroneous” (Gamble v U.S., P. xiv) income
tax case stare decisis used against Americans by Respondent, Petitioner begs the
Court’s patience with this discourse, but these issues cannot be properly understood
without all the relevant evidence and facts being laid out to prove the “falsehoods
and fallacies” in many lower court IRS rulings. (American Communications Assn, v.
Douds, P. ix).
Truth has been so seriously suppressed and camouflaged over time that it is
impossible to expose it without first chipping away at the shroud surrounding it
until the truth begins to shine through. This takes words to paint the picture of the
true facts at issue.
The evidence cannot be casually perused to see the picture despite the
possible temptation to believe that “everyone knows” that the meaning of this
evidence “cannot be true” because it has been going on for so long... “conventional
wisdom” is a weak substitute for Supreme Court stare decisis and original intent of
Congress.
Petitioner was not appointed assistance of counsel in all but one previous
case, despite request, and was not able to afford assistance of an attorney because
he is a disabled veteran and couldn’t locate any to assist him pro bono on these
issues, thus he has had to wade through all this on his own over the years, with the
help of thousands of pages of documents from other legal and IRS tax experts
supporting Petitioner’s position.
CASE HISTORY
Petitioner has attempted due process ofla w (Blacks Law Dictionary, P. viil
Kazubowski v. Kazubowski, P. xvii; Otis Mcdonald, P. xix,

&l4h Amendment, (P.

v) Schulz v. Respondent and Anthony Roundtree, P. xxi) adjudication in the
following cases on the issues herein, but was denied review of evidence, discovery,
and findings offact and conclusions oflaw (P. xiii) in all but the recent pending
cases:
+ Maehr v. United States, No. CIV.A. 3;08MC3*HEH, 2008 WL 4491596, at
*1 (E.D.
Page 4 of 35

Va. July 10, 2008); Denied due process oflaw on evidence of record.
+ Maehr v. United States* No. 3:08-MC-00067-W, 2008 WL 2705605, at *2
(W.D.N.C. July 10, 2008); Denied due process oflaw on evidence of record.
+ Maehr v. United States, No. MC 08-00018-BB, 2008 WL 4617375, at *1
(D.N.M. Sept. 10, 2008); Denied due process oflaw on evidence of record.
+ Maehr v. United States, No. C 08-80218 (N.D. Cal. April 2, 2009); Denied
due process oflaw on evidence of record.
+ Maehr v. United States, No A*09*CA-097 (W.D. Tex. April 10, 2009);
Denied due process oflaw on evidence of record.
+ Maehr v. United States, No. 8:08CV190, 2009 WL 2507457, at *3 (D. Neb.
Aug. 13, 2009); Denied due process oflaw on evidence of record. Maehr v.
United States, No. CIV. 08-cv-02274-LTB-KLM, 2009 WL 1324239, at *3 (D.
Colo. May 1, 2009); Denied due process oflawon evidence of record.
+ Maehr v. Commissioner ofInternal Revenue, No. 11-9019, U.S. Ct. Of
Appeals, 10th Circuit. (2012); Denied due process oflaw on evidence of
record.
+ Maehr v. Commissioner ofInternal Revenue, No. 12*6169, U.S. Supreme
Court (2013); Declined to hear issues.
+ Maehr v. Commissioner; No. CV 15-mc- 00127-JLK-MEH, 2015 WL
5025363, at *3 (D. Colo. July 24, 2015), affd, 2016 WL 475402 (10th Cir. Feb.
8, 2016); Denied due process oflaw on evidence of record.
+ Maehr v. Koskinen, CIR, etal, No. 16-8625, 2-22-2017, U.S. Supreme
Court; Declined to hear issues. Justice Gorsuch not party to decision.
+ Maehr v. Koskinen, No. 16"Cv-00512-PAB-MJW, 2018 U.S. Dist. LEXIS
46292, at *1 (D. Colo. Mar. 21, 2018). Denied due process oflaw on evidence
of record.
+ Maehr v. Koskinen, et el, No. 16-1204, U.S. Court of Appeals, 10th Circuit
(2016); Denied due process oflaw on evidence of record.
+ Maehr v. United States, No. 17-1000 T, 137 Fed. Cl. 805, 807, U.S. Court of
Federal Claims; Denied Grand Jury Motion filed under FRCP 6(a)(1), U.S.C.
18 & 42, and US v Williams GJ, on access to Grand Jury with evidence of
Page 5 of 35

record, and denied transfer of case to proper jurisdiction with evidence of
record for adjudication. Denied access to due process oflaw .
4 Maehr v. United States, No. 18-2286, U.S. Court of Appeals for Fed.
Circuit, 2018,' Denied Grand Jury Motion filed under FRCP 6(a)(1), U.S.C. 18
& 42, and U.S. v Williams GJ, on access to Grand Jury with evidence of
record, and transfer of case to proper jurisdiction on evidence of record.
Denied due process oflaw on evidence of record.
4 Maehr v. United States, No. 18-cv-2273-PAB-NRN Pending - (Respondent
assessment fraud, and failure to provide pre-assessment record evidence of
debt; failure to provide discovery on exculpatory evidence- Pro se).
4 Maehr v. United States, No. 18-cv-2948-PAB-NRN - Now pending Appeal
(Unconstitutional revoking of passport for alleged assessment debt - (Case of
First Impression. Polsinelli Law Firm representing - Denver, Colorado).
4 Maehr v. United States, No. 19-1335, U.S. Court of Appeals; failure to
provide pre-assessment record evidence of debt; failure to provide discovery
on exculpatory evidence, leading to this petition.
4 Maehr v. United States, No. 19-cv03464, Pending in U.S. District Court;
At least two Freedom of Information Act (FOIA) Request violations;
Exculpatory pre-assessment document suppression and/or destruction by
Respondent which allegedly supports Respondent’s assessment against
Petitioner (and likely all others similarly situated with tax assessments).
1. Petitioner, approximately in late 2002, early 2003, began requesting
answers and information from the IRS/govemment Defendant/Respondent
(hereafter “Respondent”) on various discrepancies he found in standing U. S.
Supreme Court case precedent, Internal Revenue Code, and Congressional and
other testimony, and what the Respondent is claiming and presuming about
Petitioner’s (and 152+ million other similarly situated Americans) tax liability on
what is being alleged as taxable “income”. Petitioner, multiple times, requested the
required pre-suit IRS hearing with the Respondent on these topics, but was never
provided his time to be heard.
Page 6 of 35

2. Despite repeated requests for clarification, and providing ample evidence
to bring significant challenges to Respondent’s fiction oflaw(P. xiii) and ongoing
“presumption^ claimed by the Respondent, which is not any kind of evidence, (A. C.
Aukerman Co. v. R.L. Chaides Const. Co., P. ix,‘ Del Vecchio v. Bowers, P. xii;
Heiner v. Donnan, P. xvi; New York Life Ins. Co. v. Gamer, P. xix), the Respondent
and lower courts have consistently refused to provide findings offact and
conclusions oflaw,(P. xiii) despite a proper response being stipulated in the
Respondent’s own “Mission” documents, (See Appendix B, Exhibit B1B2). The
Respondent stated in writing that it would not answer the case law or I.R. Code
and Congressional evidence questions outside of court. (See Appendix C, Exhibits,
C1-C5). To date, those “answers” have been denied in court, and evidence
suppressed.
3. Multiple summons for Petitioner’s financial records with third parties
were made by the Respondent, which Petitioner challenged (as an attempt to get his
due process oflaw time as stipulated in Respondent response in Exhibits C letters.
Motions to Quash said summons were dismissed without adjudication of provided
case evidence, or findings offacts and conclusions oflaw. (P. xiii). No answers to
this court’s own stare decisis were forthcoming.
4. Standing and jurisdiction of the Respondent were challenged (.Federal
Crop Insurance Corporation v. Merrill, P. xiii; Hagans v. Lavine, P. xv! Main v.
Thiboutot, P. xviii; Standard v. Olsen, P. xxii; Summers v. Earth Island Institute, P.
xxiiil) to assess and deprive Petitioner of property, without due process oflaw, and
ignoring evidence in fact. This was dismissed without consideration of the evidence.
5. Petitioner was then assessed approximately $310,000 (and subsequently
app. $255K amount later in the “assessment certification” to the State department
with no explanation or details as to why, but recently raised to over $343K) for an
alleged “income” tax liability for years 2003-2006, based on “frivolous” {Peacock v.
Williams, P. xix) presumptions that he had any “income” which created a liability
being assessed on, and without any pre-assessment evidence of record. The
Respondent apparently did not consider the nature of the funds in the allegedly
summonsed records of the assessed accounts, and simply labeled it all as
Page 7 of 35

Petitioner’s “wages” or other alleged business “income”, which appears to be
standard operating procedures against all Americans in assessments. This created a
hyper-inflated assessment based on fictitious obligations and falsification of records,
all without pre-assessment document evidence of liability and proven “income.”
6. The Respondent then levied ALL of Petitioner’s business account, ALL of
his Social Security Retirement funds since February 2016, (until suspended by
Petitioner which he was recently notified he could do), (Appendix E, Exhibit El,
approximately $40,000 levied thru Aug, 2020) outside due process oflaw, and
“fundamental fairness and substantial justice,” (Vaughn v. State, P. xxvi), and
without original proof of debt. Respondent even attempted levy of Petitioner’s
Mother’s Social Security funds (Appendix H, Exhibit H) which account Petitioner
was named on to help her due to her health issues, but attempted levy was properly
denied by the levied bank according to bank law records on levies of social security,
yet Petitioner’s entire social security funds have been garnished under color oflaw.
7. Respondent also threatens all of Petitioner’s lawfully protected Veteran’s
Disability Compensation, but the Appeal’s Court Reversed and Remanded
Petitioner’s Veteran’s Disability Compensation attack challenge, (on 10-20-16,
Mandate dated 12-12-16) back to Colorado District Court, 16-cv-00512PAB. The
court then agreed with the Respondent’s claim that the benefits could not be
directly attacked prior to deposit, but that once deposited, they are no longer
“veteran’s compensation and are the petitioner’s private assets” and no longer
“payable to” Petitioner and open for attack. The court denied Petitioner’s claim
despite standing Supreme Court precedent in Porter v Aetna, (P. xx) case which
case the 10th Circuit Court of Appeal’s remanded on, and despite 26 U.S.C. §6334 (P.
vi).
8. Petitioner brought suit against the Respondent for attempting to destroy
Petitioner’s ability to survive, and for violations of law, for levy fraud, for non­
disclosure, and to seek constitutional protections, as well as demanding a Jury trial
under his 7th Amendment rights (P. v), to have the evidence heard by an unbiased
group of his peers who would clearly see the standing evidence and truth. Jury trial
was never addressed to date and was thus denied to Petitioner.
Page 8 of 35

9. Although the 10th Circuit Court of Appeals previously Reversed and
Remanded the Veteran’s Disability Compensation attack challenge as not being
“legally frivolous”, it denied all other challenges claiming the U.S. Supreme Court
case precedent and other self-authenticating evidence cited was “legally frivolous”,
but without any supporting finding offact or conclusions ofla w (P. xiii) in support.
The lower courts also did not require the Respondent to reply to defend against
actual evidence.
10. Petitioner brought suit in the U.S. Court of Claims (but the court lacked
jurisdiction) and Petitioner then moving the court to transfer the case to proper
jurisdiction, (Petitioner believed, and stated, it was the U.S. Supreme Court, who
alone was left to hear the constitutional issues) which authority it had (Traveler's
Indem. Co. v. United States, P. xxiii), and to convene a Grand Jury to investigate
these and many more questionable IRS administrative issues. The court denied
both remedies under questionable reasoning. Appeal to the U.S. Appeals Court for
the Federal District was made on both issues, and denied for same questionable
reasons. Petition to this court followed, which was denied hearing again.
11. Petitioner received a copy of an “Assessment Certification” letter which
Respondent sent to the U.S. State Department under the FAST Act, and IR Code
7345 dated July 16th, 2018. (Appendix D, Exhibit D). This effectively revoked
Petitioner’s passport and deprived him of his right to travel without due process of
law. Said assessment certification was also conspicuously lower than the original
assessment with no explanation, including all social security taken to date.
(Appendix GExhibit G1G2).
12. This opened the opportunity for Petitioner to file two separate cases
against Respondent and the U.S. State Department as cited in case history list
above.
13. The assessment case (l9-cv-02273) which was appealed (case 19-1335)
were dismissed without providing either discovery of exculpatory documents being
suppressed, and possibly destroyed by Respondent, (despite all other “in-house”
documents created FROM these exculpatory documents still, strangely, retained by
Respondent and provided Petitioner), and denied adjudication on the very core issue
Page 9 of 35

cases of “income” defined by this court long ago.
14. The Colorado District Court and 10th Circuit court denied discovery, and
this fourth petition for certiorari now follows.
15. Why can’t Respondent and the courts simply answer the basic questions
and address this Court’s standing case opinions, and end the ongoing income tax
challenges by proving its administrative actions and case interpretations are proper
and lawful, and bring back untold numbers of Americans who have abandoned the
wage tax by simply not complying or volunteering any longer because of this court’s
evidence that their wages are NOT lawful income?
REASONS FOR GRANTING THE PETITION
15. The foundational elements of this case are structurally constitutional in
nature. The nature of, and original lawful definition and understanding of,
“income”, the true and original intent of the 16th Amendment, (P. v) the lawful
process for assessment creation, and public access to Grand Jury processes must be
decided based on original intent and standing Supreme Court case precedent and
due process oflaw and pre-assessment evidence proving alleged debt, not false
interpretation and non-application of U.S. Supreme Court case precedent.
the Internal Revenue Code, and the 16th Amendment, and unsubstantiated
newer case precedent which ignores this court’s “stare decisis. ”
16. This court ruled that Staire Decisis dictated “intrinsically sounder
doctrine” (Adarand Constructors, Inc. v Pena, P. ix) especially since all such
Supreme Court cases provided in Petitioner’s defense have never been overturned,
and yet are being discarded under color oflaw, (Atkins, P. x) with newer “precedent”
being relied upon without proper adjudication of relevant evidence. This is a
suppression of Staire Decisis and creates clear constitutional conflicts between this
court and the lower courts and Respondent’s administrative actions.
17. Petitioner wants to make it clear that he is NOT contesting the
government’s right to tax lawful “income” received by relevant individuals or
businesses, and that this is NOT a “tax protest” issue, (or similarly biased labels
which have been illegally used against him in many past courts {Treasury Inspector

Page 10 of 35

General for Tax Administration, P. viii) to taint and prejudice any who are involved
with this issue. Neither is Petitioner “anti-tax” nor “anti-government” but he IS
against unconstitutional or fraudulent taxation, and is anti-corruption, and
supports lawful taxation for lawful government purposes. Petitioner is one of the
many millions of “Tax Honesty” Americans needing answers to clear conflicts of
record.
18. The issue of government needing revenue to function is a separate but
related issue on this Petition. Government, for 125 years from founding didn’t need
an “income” tax on private American’s wages, as all constitutional taxes were more
than enough to sustain all constitutional needs of the government. However,
claiming that an unconstitutional or fraudulent tax is justified because government
“needs the money” for unconstitutional purposes is untenable.
19. All the trillions the government spent on the undeclared wars, and all the
trillions spent on past corporate bailouts did NOT come from a wage tax, but the
government still “spent” it... meaning it was fiat “money” created by the Federal
Reserve, then loaned to the government, at interest, thus creating the growing
national debt on the heads of all Americans. The government’s own “Grace
Commission Report” (P. xv) proved that not one cent of American’s wage tax pays
for anything but the interest on the fraudulent national debt... all issues which
could well use adjudication and grand jury investigations. Things are no different
today than when the Grace report was created.
20. Petitioner can only act on what evidence he has discovered, and defend
his life and his assets using the substance of the evidence and existing law,
(Fortney v. U.S., C.A.9, P. xiv), and if questions are not realistically answered, and
doubt has been created, especially without rebuttal evidence in fact, “the doubt
should be resolved in favor of the taxpayer.” (Gould v. Gould, P. xvl Hassett v.
Welch., P. xvi). Far too much deference has been given by the courts to the
Respondent without proper vetting of the actual claims made and evidence provided
by Petitioner, whose job it is (along with all Americans) to hold government
accountable and prevent government error. (American Communications Assn. v.
Douds P. ix). This is being denied and obstructed at every level to date.
Page 11 of 35

21. Because the Respondent has highlighted some previous lower court
precedent used against other individual cases and their tax arguments, which
challenges were labeled “frivolous against Petitioner, does not raise such
questionable precedent to the level of credible evidence, seeing that Petitioner’s
evidence herein has never been adjudicated in any of the lower courts cited by the
Respondent, making moot any legal standing to use lower court sites as evidence
in these basic constitutional issues. Such cases may have been labeled “frivolous
in regard to the lack of evidence presented by parties, or improperly argued, but
certainly, and provably, did not contain the evidence herein.
22. In the fnternalRevenue Manual, (P. vii)”, it clearly describes that the
Respondent and all lower courts are bound to U.S. Supreme Court case precedent.
This has been ignored by all lower courts and the Respondent.
23. All previous lower court cases cited by the Respondent, and the Court of
Appeals citing of its own rulings,C) rim counter to the U.S. Supreme Court Staire
Decisis. In Sniadach (P. xxii), this court overturned similar actions apart from due
process ofla wand lawful judgement, but this case is far beyond that challenge
alone. The Respondent has willfully and wantonly attacked Petitioner, and all other
Americans similarly situated, for defending his rights by raising this court’s still
standing case precedent on these issues, (U.S. v. Mason, P. xxv) and requesting
clarification, but the Respondent and lower courts failed to consider any of it as
relevant evidence, denying Petitioner’s right to redress of grievance. (Schroeder v.
New York, P. xx).
24. Petitioner (and all Americans) are required to know the law to

1 The Court of Appeals in its October 20, 2016 ruling, claimed that...
“Appellant has raised these same arguments before, and we have rejected them
before. See, e.g., Maehr v. Respondent, 480 F. App’x 921, 923 (10th Cir. 2012),”
however this is not accurate. The evidence regarding wages not being lawful income
was not addressed, and the fact that the assessment was apparently made on gross
assets (if any actual documents exist which the assessment was actually based on)
which were NOT wages or business profit to Petitioner, and was mostly business
expenses, was also not addressed by the Appeal’s Court. Respondent has never
proven pre-assessment (exculpatory) documentation exists or provided it.
Page 12 of 35

understand what our personal responsibilities are, especially in tax liabilities and
duties in lawful support of government, {Joseph Nash v. John Lathrop, P. xvii). In
order for this to occur, we must study standing cases, the statutes, the Constitution,
and other legal sources on the subject, as well as request answers from relevant
government authorities who know, or should know, the laws. Petitioner has done so
with the Respondent’s claims regarding an alleged tax liability, but has been denied
answers. Any tax liability must be proven valid despite “demanding payment, even
repeatedly” {Boathe v Terry, P. x). Judicial review (5 U.S.C.,§ 702, P. v) of the
Executive Branch of government/Respondent’s actions by the independent Judicial
Branch is a vital safeguard of American liberties.
25. Petitioner realizes the ramifications of these challenges, but the issue is
one of the Rule of Law, constitutional validity, original intent, relevance of this
court’s rulings, and what is right and just for our Union, not one of power and
control over Americans and the threat to illegal or unconstitutional government
activities long since forgotten. The threat is to Americans and their financial future,
and is simply part of draining the swamp President Trump and administration are
focusing on, (who will receive notice of this Petition).
26. Petitioner maintains that his challenges are meritorious on multiple
levels but are being resisted without proper adjudication of evidence presented.
These issues affect not only Petitioner, but also all Americans similarly situated,
which appears to be many millions of Americans (Taxpayer Advocate Service, 2017,
P. viii) “voluntarily”... “self-assessing” that they received “income” in the way of
wages, and unwittingly filing their 1040 form and paying a potentially
unconstitutional and unlawful tax.. This is a constructive fraud against Americans
which is being suppressed, and disclosure is being obstructed by corrupt elements in
government, “conventional wisdom” not withstanding.
FIRST CLAIM FOR RELIEF
DECLARATORY JUDGMENT 1, LAWFUL DEFINITION OF INCOME
28. Petitioner’s first relevant issue is that a tax on properly defined “income”
appears to be a lawful and constitutional tax, however, the word “income” is not
defined in the Internal Revenue Code, {U.S. v. Balard, P. xxiv), and said code is not
Page 13 of 35

clear and unambiguous. “Burden ofproof (5 U.S.C. §556(d), P. iv) lies with
Respondent to refute Petitioner’s presented evidence as to what “income” lawfully
is. Income cannot be made to be something it isn’t. CHelvering v. Edison Bros.
Stores, P. xvi; Taft v Bowers, P. xxiii). The definition of “income”, over time, has
been expanded beyond original or lawful intent. (Gould v. Gould, P. xv). The
Respondent refuses to prove that its definition of “income” includes private
American’s “wages, salary or compensation for service” (hereafter “wages”) for
work/labor, using constitutional construction, or countering this honorable Court’s
stare decisis on the clearly defined word. It uses mere presumption (A. C.
Aukerman Co. v. R.L. Chaides Const. Co., P. ix! Del Vecchio v. Bowers, P. xii;
Heiner v. Donnan, P. xvi! New York Life Ins. Co. v. Gamer, P. xix) and
“conventional wisdom” which fails testing.
29. In 26 U.S.C. §61, (P. v) the code attempts to define “gross income” as “all
income from whatever source derived.” The above use of the word “income” twice in
this code section fails completely to lawfully define the word with any legal
relevance. Logically, according to 26 U.S.C. §61, a tax on “income from whatever
source ‘derived’” is not a tax on the “source” of that income. Thus, we are left with
no code definition for “income,” and have legal ambiguity as to its proper definition
which leaves large holes in any attempts to presume what it means. The code
section is extremely vague ( Winters v. New York, P. xxv) and cannot be relied upon
to clearly state the taxing or assessment objective of Respondent apart from
presumption or hearsay.
30. In 26 U.S. Code §6012, (P. vi) it attempts to clarify who is required to file
a return by stating... “Every individual having for the taxable year gross income...”
The obvious deficiency in this code is that those made “subject to and liable for” is
based on Respondent’s undefined word “income” and is merely presumed to include
private American’s wages, salary or compensation for services.”
31. The term “income” had “a well defined meaning before the [16th]
Amendment to the Constitution was adopted”, (1913 Congressional Record, P. vii),
and no legislation changed or can change that meaning. (.Helvering, P. xvi).
“Income” does not include “everything that comes in” to anyone. (Doyle v. Mitchell
Page 14 of 35

Brother, Co., P. xii; Southern Pacific v. Lowe, P. xxii). “Income” originally meant
what we today call unearned income or passive income, or corporate profits, capital
gains, interest income, investment income, and similar progeny.
32. “Income” at the time the 16th Amendment was adopted included
numerous things but AfiPJ'wages of the private working man or woman. Income
was originally understood to be an excise tax (Brushaber v. Union Pac. R.R. Co., P.
x! Springer, P. xxii) on the exercise of privilege or enjoyment of commodities, (Chas.
C. Steward Mach. Co. v. Davis, P. xii Flint v. Stone Tracy Co., P. xivi Pollockv
Farmers'Loan & Trust co., P. xix; Stratton’s Independence, Ltd. v. Howbert, P.
xxiii). Further, “income” had to meet specific criteria to be lawfully and
constitutionally labeled as income and be a taxable item.
33. Lawful income “must have the essential feature of’ a “gain” or “profit” to
the recipient, and “if there is no gain, there is no income.” (Conner v. United States,
P. xi; Staples v. U.S., P. xxiii; U.S.C.A. Const. Am 16, P. xxiv). “Profit is a different
thing altogether from mere compensation for labor,” {U.S. v. Balard, P. xxiv).
“Income” was originally identified with “ the gain derived from or through the sale
or conversion of capital assets... a gain, a profit... proceeding from the property...”
{Merchants Loan & Trust Co. v. Smietanka, P. xviii; Taft v. Bowers, P. xxiii). The
very use of the words “gains” and “profits” is to “limit the meaning of the word
income”, {Southern Pacific v. Lowe, P. xxii), and shows a clearly understood
distinction between “wages”, and any kind of “gain or profit or income.”
34. Congress sought to tap the “unearned wealth of the country” (45
Congressional Record, P. vii) and to reach the “profits arising from” {Black’s Law
Dictionary, 2nd Edition, P. vii) other principal sources... a byproduct of productive
businesses and assets. Original intent on exactly how “income” was defined did not
include “wages, salary or compensation for services,” {Conner v. United States, P.
xi; Gov. A.E. Wilson on the Income Tax [16] Amendment, P. xiv; Laureldale
Cemetery Assn. v. Matthews, P. xvi; Lucas v. Earl, P. xvii; U.S. v. Balard, P. xxiv).
35. “Only a small proportion (3.9%) of the population of the United States
was covered by the income tax” in 1936. (Treasury Department’s Division of Tax
Research Publication, P. viii). Is this court, or any American, expected to believe
Page 15 of 35

that there were so few Americans working for a living in 1939 that only 3.9% of the
entire population of America were involved with receiving compensation for their
work? The Springer Court (P. xxii) stated plainly at #40... “Where the population is
large and the incomes are few and small...” showing that the working man or
woman’s personal wages were NOT classified as “income” that could be taxed. Most
Americans then had NO lawful “income” (gain or profit) “derived” from something,
and their wages were not classified as “income” at that time. At that time, “income”
was strictly connected to business and other profits, and the exercise of privilege,
not American’s wages.
36. The 16th Amendment states, in part...
“Congress shall have power to lay and collect taxes on incomes, from
whatever source derived...” (P. v).
This is similar to wording in 26 U.S.C., §61, (P. vi). Both declare “income” as
something “derived” from whatever source, but this is very misleading and
ambiguous at best, as discussed below. Petitioner asks this court to consider that
income derived from whatever source logically cannot possibly be the same thing as
the source itself. Logically, according to §61, a tax on “income from whatever source
derived” is not a tax on the source of that income. If “gains, profit and income” are
synonymous with “wages, salary or compensation for services” as the Respondent
claims but this court’s precedent denies ... i.e., “wages” are the exact same thing as
“income”... then how does Petitioner (or anyone in America) “derive” any “income”
FROM “wages”, which is allegedly the same thing? Something “derived from” a
parent source can possibly be taxed as “income” but Petitioner’s (and millions of
other American’s) wages (principle) have been assessed by the Respondent as
“derived” income when it is not. (Edwards v. Keith, P. xiii; Pollock v. Farmers’ Loan
& Trust co., P. xixO.
37. To make this point crystal clear and obvious, wine might be derived from
grapes, but wine and grapes are not the same thing. A tax on wine (“from whatever
source derived”) would be a tax on wine derived from grapes or from any other kind
of source. But a tax on wine “from whatever source derived” would not be a tax on
the sources the wine is derived from, i.e. the grape or other fruit. The tax would be
Page 16 of 35

only on the wine that is actually made from (derived from) any of those different
sources.
38. Webster's Dictionary defines "derived" as...
"to take, receive, or obtain especially from a specified source," and “to take or
get (something) from (something else).”
Black’s Law Dictionary, 6th Edition states...
“Derived. Received from specified source.”
The property (wage, salary or compensation) would be the parent “source”
(principal) and the "gain, profit or income" would be a separate "derivative"
obtained “from” the parent substance through other mechanisms of law or
privileged business pursuits.
Webster's Dictionary defines "from" as. . .
"... to show removal or separation," and “used to indicate the place that
something comes out of.”
Black’s Law Dictionary, 6th Edition states...
“From. As used as a function word, implies a starting point, whether it be of
time, place, or condition! and meaning having a starting point of motion,
noting the point of departure, origin, withdrawal, etc. One meaning of ‘from’
is ‘out of.’”
39. The Respondent is claiming that wages, once received for labor or other
work, somehow, through an as yet unknown mechanism of law, (short of smoke and
mirrors color ofla w (Atkins, P. ix) is transformed into “income” (gain/profit) that is
now directly taxable at the source. Multiple standing court cases have held that a
tax on “income” is not “a tax on its source...” i.e., the “source” of income is not the
subject of the income tax. (Graves v. People ofState ofNew York, P. xv), therefore
how can Petitioner’s or any private American’s wages be the specific target of an
“income” tax since wages are considered a “source” of “income”?
40. The ONLY possible way “income” can be “derived from” (“to take or get
(something) from (something else)” Petitioner’s (or any American’s) “wages” is if
Petitioner takes what may be left of his wages he receives in equal exchange for
labor (which is property he owns, Slaughter House, P. xxi) or other work, (which is
Page 17 of 35

merely principle) and invests it, or in some other way, creates (derives) a “gain or
profit” FROM the wages, such as interest or other “gain/profit/increase” from
investment of wage principle, or the code is ambiguous and cannot lawfully be
relied upon. “The meaning of‘income’ in this (16th) amendment is... Something of
exchangeable value, proceeding from” the wage or asset. {Taft vBowers, P. xxiii).
There can be no other reasonable way to “derive” “income” from “wages, salary or
compensation for service.”
41. The Respondent is claiming that all Petitioner’s (or any American’s) labor
is completely free to him, and thus, “all” his wages for that labor are pure “profit”
and “gain” and labeled as “income.” Respondent also alleges that there are ZERO
costs related to the ability to provide labor to make a living. This makes Petitioner’s
labor, which is principle, a form of lawful, personal assets, {Butchers’ Union Co. v.
Crescent City, P. x; Slaughter House, P. xxi)... inherently worth nothing and
already all tagged as some sort of pure “profit”. The costs to be able to “derive” a
“profit” or “gain” are clearly established and understood for businesses. To claim
there are no “costs” related to Petitioner (or all others) in providing labor or services
is untenable, and this court’s stare decisis, and other evidence, clearly establishes
this. There are “costs” for Petitioner and all Americans to be able to produce labor,
{Adkins v. Children’s Hospital, P. ix). To suggest otherwise is to create a form of
involuntary servitude called slaverjK2) in violation of the 13th Amendment, where
ALL, or parts of, someone’s personal labor is already owned and claimed by
someone else.
42. When Petitioner (or anyone) gives 8 hours a day, 5-6 days a week in labor
or service, each of those hours must have intrinsic value to him. He “invested”
something to be capable of working in the first place, whether it is education costs,
or food to sustain himself. Those wages were not handed freely to him without
personal cost or expenses. The work was provided by Petitioner and not the
2“ Neither slavery nor involuntary servitude, except as a punishment for
crime whereof the party shall have been duly convicted, shall exist within the
United States, or any place subject to their (the united 50 States) jurisdiction.” 13th
Amendment
Page 18 of 35

Respondent, so what laws authorize the Respondent to claim that part of every
hour’s wage is not Petitioner’s own, not belonging to him but belonging to the
Respondent? A simpler analogy... If it costs Petitioner or any American $1500 a
month to live and be able to work, and he makes $1500 a month in wages to support
that living, where is the “profit” or “gain” or “income” to Petitioner alleged by the
Respondent?
43. Working for a wage is not a government privilege that can be taxed as
Petitioner and all private working Americans are being taxed. Labor is a personal,
private asset which can be sold at will, (a privately-contracted, equally-exchanged
and agreed upon value-for-value exchange (work for wages - Coppage v Kansas, P.
xii) situation. Petitioner’s right to work is clearly established... (.Butchers’ Union Co.
v. Crescent City, P. xi; Coppage v. Kansas, P. xii; Flint, supra at 151-152, P. xiv;
Jack Cole Company v. Alfred T, MacFarland, Commissioner, P. xvi‘> Jerome H.
Sheip, Co, P. xviil Sims vs. Ahrens, P. xxi; Slaughter House, P. xxi) and is a contract
through a private agreement between Petitioner and his employer, or through selfemployment, and is not something which the government has any right to interfere
with or to claim any lawful rights under. Petitioner has no contract with the
Respondent that he has any knowledge of or agreed to knowingly or willingly that
would call for such a personal, direct tax on his personal, private wages (the source
itself.) he received for his labor. To suggest that the labor is the source of the
“income” is a direct violation of our constitutional right to work which is not a
taxable event.
44. Does it cost this Supreme Court’s Justices anything to be sitting there
daily, or the clerks to be arriving at work daily, or the DOJ or other attorneys to be
in the courtroom daily? Are there ANY costs related to being able to arrive at the
court to perform duties and receive a wage or salary, as there are costs for any
business to be able to produce a “profit” or “income” after ALL expenses? This court,
and Congress, originally understood this as common knowledge at one time.
Petitioner has never “derived” any taxable “income” from his wages or other assets,
yet ALL his assets for living have been and are being threatened because of this
presumption ((A.C. Aukerman Co. v. R.L. Chaides Const. Co., P. ix,' Del Vecchio v.
Page 19 of 35

Bowers, P. xii; Heiner v. Donnan, P. xvi; New York Life Ins. Co. v. Gamer, P. xix)
that he had any taxable “income.”
45. If the “principal” (wage/source) is attacked right from the top, this
diminishes the value of Petitioner’s labor or work to him, and prevents him from
actually being able to produce lawful “income” through “deriving” (investing) assets
from the wage (principal) which helps “create” income (Crandall v. Nevada., P. xii),
because he has expenses he must pay to be able to work. Any business taxed on
gross “receipts” would quickly be out of business. Is it any wonder Americans are
struggling as they are, often with two or more jobs to pay for costs to be able to
work and feed and clothe their families, AND pay unlawful wage taxes?
46. Petitioner asks this court to further consider... if there are actual income
tax laws that Petitioner has truly violated, as the Respondent claims, versus simply
personal belief of not being “liable” to file an “income” tax return, (which exonerated
Cheek - Cheek v. US., P. xi - of charges of “wilful failure to file”), then what actual
alleged tax law has Petitioner violated in the last 18 years, and what subsequent
law authorizes the Respondent to maliciously assess, lien, and levy all Petitioner
has, especially without any criminal charges and apart from due process oflaw or
valid proof of liability or debt on the record, as well as being denied exculpatory
documents being suppressed?
47. Ample charges of “owing” an alleged lawful “income” tax and not paying it
have been consistently leveled against Petitioner, and ALL social security assets
seized accordingly, yet no charges for some alleged law violation for not willingly
filing since 2003 have come despite requests for the law Petitioner is violating.
What happened to reason and justice and the Rule of Law? If Americans all across
this Republic simply claimed it was their “belief1’ that they were not violating any
valid standing law, as Cheek did... such as against murder, theft, assault, fraud,
rape... would this exonerate them, and nullify actual standing laws they violated,
and free all of them from any criminal or civil violation of the alleged laws they
were being prosecuted through? That, of course, is nonsense.
48. If they were freed from criminal actions due to belief, would that
suddenly create a law authorizing government to take all their assets or punish
Page 20 of 35

them without any apparent law being violated? How is this different if there is an
actual “income” tax “law” being violated that proves liability to Petitioner (or any
American) for a tax on his wages, and a law supporting said levy of all Petitioner’s
assets? By what “law” is Petitioner and countless other Americans being
administratively assessed under, especially without evidence of debt. This extralawful levy action is nothing but an administrative form of theft and fraud under
color oflaw. (Atkins, P. x). RICO/Title 18 & Title 42 clearly come to mind.
49. The evidence is clear from original intent of this court and Congress, but
a he has been sold to America over generations since WWII, and is egregiously
harming most American’s finances. Alabama was the first State in the Union to
ratify the 16th Amendment. According to the The New York Times, (P. xix) a Col.
Bulger introduced the 16th Amendment in the Alabama House and was told that the
amendment would not affect American’s salaries. How is it that it NOW affect’s
salaries or wages? Is a “salary” different from “wages” in fundamental form?
50. The “income” tax is to be an indirect excise tax on corporate privilege,
{Stratton’s Independence, P. xxiii; Springer, P. xxii) and be uniform across the
States. The Respondent has avoided defining “income” or how it is complying with
this legal requirement, or show how it is being constitutionally applied to Petitioner
or others similarly situated, and can’t even show in their own code where personal
private American wage liability is created, like liability for other constitutional,
lawful excise taxes such as alcohol, tobacco and firearms production, which have
clear “liability” statedX3) Absent clear language on liability never proven of record,
and “where the construction of a tax law is doubtful”, all courts should demand
liability proof, or favor Petitioner. {Gould v Gould, P. xv/ Hassett v. Welch., P. xvi/
Spreckels, P. xxi).
51. The Respondent continues to label Petitioner as “taxpayer” without any
evidence that this is a valid label, and this court clearly distinguished a difference
between a “taxpayer” and a “nontaxpayer,” therefore there must be something that

3 As compared to activity creating a liability “clearly” defined in 26 U.S.C., §
5001 - Alcohol; § 5703 - Tobacco! § 5801, 5811 and 5821 - Firearms.
Page 21 of 35

establishes that difference. {Economy Plumbing & Heating, P. xii). The Respondent
has never shown where in the tax code it makes Respondent “subject to and liable
for” filing a 1040 tax form declaring that what he has received as payment in
wages, salary or compensation for services constitutes, “gross income”, “income” or
anything subject to an excise, privilege tax and making him a “taxpayer” by law.
Given this clearly defined issue, not to mention deliberate ambiguity in IR Code,
the courts should have favored Petitioner, or at the very least adjudicated all the
evidence thus far ignored.
53. Therefore, by a preponderance of the evidence herein, Petitioner asks this
court to strongly consider hearing and adjudicate the issue of a declaratory
judgment on the lawful and constitutional definition of “income” with all of its
progeny, and to declare that wages are not lawful “income” given the original intent
of Congress and this court, and declare that said private wages, salaries or
compensation for services are not subject to Respondent’s taxation scheme unless
proven, or remand this issue for proper adjudication.
SECOND CLAIM FOR RELIEF - PRE ASSESSMENT PROOF OF DEBT
LACKING IN EVIDENCE FOR ASSESSMENTS MADE BY RESPONDENT
54. However, the above issue on the lawful definition of “income” being
argued, even if private American’s wages “COULD” somehow be proven to be lawful
“income,” does this authorize the Respondent to call anything going into any
American’s possession as “income” especially without documented evidence or
lawful proof of debt, and through denying discovery of exculpatory evidence
continually being suppressed, or destruction of said evidence?
55. IF the Respondent could prove with evidence on the record that “wages”
ARE lawful “income”, and this court overturns all of its case precedent cited to
counter that claim, or it disagrees with the argument for lawful and constitutional
cause, there is another tangent which compounds the Respondent’s fraudulent
assessment procedures against Petitioner and others similarly situated. Claiming
that “ALL” assets in any account, including ALL gross assets entering into a
business account, is actual “income” (wages or business income/profit received) that
can lawfully be assessed is frivolous at best, and clearly fraud against Petitioner
Page 22 of 35

and others.
56. Even if this court were to overturn its original case precedent on the
original definition of income, for lawful cause, we must, in all fairness, go on to
review the actual assessment process that is claimed to be based on Petitioner’s )or
any American’s) actual wages or business income, and what Petitioner’s (or any
American’s) approximately $310,000 first tax assessment (Appendix G, Exhibit G2)
is actually based on.
57. If the Respondent is claiming to be assessing Petitioner’s lawful wages or
business profits as taxable “income”, the approximately $310,000 original
assessment would be prima facie evidence that Petitioner made a fairly specific
amount of actual taxable personal wages or business profits for the years in
question. Based on the apparent 30% tax rate against Petitioner, (based on the
Respondent’ claim of a near $310,000 debt), the Respondent, in no lawful means,
proved that Petitioner made over $250,000 PER YEAR in personal wages and/or
business profits for each year of 2003, 2004, 2005 and 2006, ($1 million over four
years, 30% being app. $310,000), especially without any pre-assessment bank or
other evidence in the record to prove this, and missing exculpatory evidence.
58. Are the courts expected to simply assume that Petitioner (a disabled vet)
(or any other American so assessed) made that kind of actual wage or business
profit, and all without any records to verify such? The previous actual alleged
summonsed business or bank records used to make the assessment (not in evidence
in any past court) would clearly prove Petitioner’s claim (if such exculpatory pre­
assessment summonsed documents even exist) that the assessment could ONLY be
upon business expenses and customer’s order payments and NOT on lawful wages,
or business profits of any sort to Petitioner. The Respondent ignored its own code.
“Gross income (26 U.S. Code §61, P. vi) and not ‘gross receipts’ is the foundation of
income tax liability.” (U.S. v. Balard, P. xxiv). All that comes in is not “gross
income” but only that which is actual “profit” that is separate from gross business
receipts and after all expenses. The Respondent apparently ignores this fact in
Petitioner’s case, and very likely all other past assessments on Americans.
59. Petitioner is a disabled Navy veteran, since 1972. He has had only partPage 23 of 35

time work, or self-employment, or no work at all, since 1972, and even gave up
ownership of his house because he eventually couldn’t pay the expenses of upkeep,
taxes, etc., even before his complete, 100%, social security garnishment. The
Respondent knew or should have known Petitioner’s financial condition from the
records they allegedly obtained through multiple summons, and available Social
Security records in evidence, (Appendix E, Exhibit E2-1 & E2-2), showing nothing
remotely in evidence suggesting a taxable wage, or receiving any business profits,
at the assessed, or any, level. The Respondent did not considered the evidence, or
bother with due diligence in lawfully determining if there was ANY wage or
business profit that was in the record, and apparently willfully, wantonly and
fraudulently assessed all “gross receipts” damaging Petitioner severely, and most
likely many other Americans, with this assessment scheme.
60. This is simply more evidence of Respondent fraud against Petitioner, and
any others similarly situated who receive such assessments. This rises to the level
of creating fictitious obligations, falsification of records and constructive fraud,
(McNally v. United States, P. xviii; Williams v. Dorsaneo, P. xxvi). The Respondent
has been clearly silent on this, and has been warned by this court before about this
silence being a form of fraud, {U.S. v. Tweel, P. xxv), through failing to respond to
lawful challenges and this court’s case precedent, as have the lower courts also.
61. Petitioner contends that this is prima facie evidence of Respondent’s
“standard operating procedures” for most every assessment, levy, and subsequent
taking of American’s homes, lands, accounts and other property, and needs to be
vetted, and if discovery were allowed, evidence showing unlawful Respondent
administrative activities would surely be available.
62. Therefore, Petitioner asks this court to ORDER Respondent to provide
pre-assessment, (exculpatory) evidence in fact of any assessment of Petitioner, if not
already adjudicated, to include any summonsed or other “pre-assessment” records
used for any alleged assessment and levy process, as a proper due process oflaw
step to defend against this type of “creative” assessment scheme, or remand this
issues for proper due process adjudication.

Page 24 of 35

THIRD CLAIM FOR RELIEF - DECLARATORY JUDGMENT TWO
ON THE EXACT TRUE INTENT FOR THE 16th AMENDMENT
63. The Respondent claims the 16th Amendment (P. v) is its authority to tax
income and wages of Petitioner and all Americans, but this position conflicts with
this court’s stare decisis and historical record evidence as discussed above and
below.
64. The claim that a lawful “income” tax was “authorized” by the 16th
Amendment in 1913 is a frivolous claim. The 16th Amendment does not define
“income” nor does the language prove that a new tax on wages was suddenly
authorized by the original intent of Congress. This is only frivolously
fraudulently presumed and enforced by the Respondent.
65. This honorable court ruled in multiple cases that there was “no new
power of taxation” created by the 16th Amendment, which conflicts with the
Respondent’s claim. The following cases make this clear:
a) Bowers v. Kerbaugh-Empire Co., P. x
b) Eisner vMacomber, P. xiii
c) Evans vs. Gore, P. xiii
d) Peck & Co. v. Lowe, P. xix
e) Taft v. Bowers. P. xxiii
66. If the term “income” had “a well defined meaning ‘before’ the (16th)
amendment to the Constitution was adopted”, (1913 Congressional Record, P. vii;
Springer, P. xxii), and was long before taxed as such, by what authority does the
Respondent claim the 1913, 16th Amendment is the authority for “initiating” an
“income” tax on American’s private wages, especially if they cannot and will not
lawfully define “income? This is not in evidence of any record. If the Respondent
cannot and will not define “income”, how can Petitioner or any American be held to
something that is not in evidence without simply hearsay and presumption, or
know what “income” lawfully is and what their tax liability is without verifying
their tax duties and proving their liabilities by simply looking to original intent and
this court’s precedent, as in this case, to find where “income” IS clearly defined?
67. Huge portions of the modern body of the actual income tax code

Page 25 of 35

instituted and understood today pre-dates the 1913, 16th Amendment. This is
plainly stated in the preface to the 1939 Internal Revenue Code, (Appendix F,
Exhibits F1-F2), and Congress’ published comprehensive derivation table
(Derivation Code source, P. vii) which explicitly identifies the pre-16th Amendment
origins of these still-current statutes.
68. There are over 300 examples of pre-1913 derivation dates, beginning as
far back as 1862, and all still relevant in today’s code. This pre-existing “income”
tax was NOT originally on Petitioner’s or any American’s wages but only on gains,
profits and income from privileged business and other taxable activities as argued
above. In fact, President Taft, in his letters to Congress (P. viii), discusses the
actual intent of the 16th Amendment as originally structured, and proves original
intent of the actual subject of the “income” tax. A thorough reading of this letter
demonstrates several elements of this case argument.
69. The 16th Amendment simply cleared up the Pollock Court's conclusion^).
The 16th Amendment provides that Congress could “continue”... to apply the income
tax to “gains” that qualify as "incomes" (that is, the subclass of receipts that had
always been subject to the "income" excise tax due to being the product of an
exercise of privilege), such as other taxation without being made to treat the tax as
direct and needing constitutional apportionment when applied to dividends and
rent by virtue of judicial consideration of the “source.” The 16th Amendment merely
says that privileged “gains” (actual “income”) can't escape the tax by resorting to
Pollock's "source" argument. (Graves v People ofState ofNew York, P. xv5 So.
Carolina v. Baker, P. xxii). The Government Printing Office’s document titled “The
Sixteenth Amendment - Income tax”, dated 1951, (too large to reproduce herein)
clearly discusses the nature and scope of the income tax and the true purpose of the
16th Amendment, and this does NOT include any discussion of private American’s

4 The Pollock court embraced an overturned argument that when applied to
excisable gains realized in the form of dividends and rent, the "income" tax was
transformed into a property tax on the personal property sources (stock and real
estate) from which the gains were derived. (Pollock v. Farmers’ Loan & Trust, 157
U.S. (1895).
Page 26 of 35

wages, salary or compensation for services being defined or included as “income.”
70. The 16th Amendment doesn't transform the "income tax" into a direct tax,
nor modify, repeal, revoke or affect the apportionment requirement for capitations
and other direct taxes. It simply prohibits the courts from using the overruled
reasoning of the Pollock decision to shield otherwise excisable dividends and rents
from the income tax. The Treasury Department’s legislative draftsman, F. Morse
Hubbard, summarizes the amendment’s effect for Congress in hearing testimony in
1943:
"[T]he amendment made it possible to bring investment income within the
scope of the general income-tax law, but did not change the character of the
tax. It is still fundamentally an excise or duty..."
71. If the original lawful “income” tax codes predate 1913, which evidence
proves, and it is to be treated as an indirect excise tax on privileged activity, and
not a “new” tax on any new subject, it begs the question... “by what constitutional
authority or mechanism of law or statute is the Respondent taxing Petitioner’s, (or
any American similarly situated) wages, let alone all gross business assets in any
account, as ‘income’, without clear and unambiguous laws and pre-assessment
evidence of record?” This was ignored by all lower courts.
72. Wherefore, Petitioner asks this court to consider a final declaratory
judgment on the true facts and evidence regarding the true nature and purpose of
the 16th Amendment, and to clarify that its alleged (and challenged) ratification did
NOT create “any new” subject of taxation, did NOT create the “income” taxing
authority, and does NOT include private American’s “wages, salaries or
compensation for services” as stare decisis and original evidence proves, or remand
this issue for due process adjudication.
FOURTH CLAIM FOR RELIEF
DECLARATORY JUDGMENT THREE ON LEVY AUTHORITY
73. Respondent has been levying ALL Petitioner’s social security since
February, 2016 (until Petitioner recently learned that he could suspend payments
around 8*2020). This levy of every penny of Petitioner’s (and all others similarly
situated) social security flies in the face of §1024 of the Taxpayer Relief Act of 1997
Page 27 of 35

(Public Law 105-34) supported by 26 USC §6331 (h)(1) (P. vii) which states that “up
to 15%” of social security can be levied for alleged federal tax debt. By what
authority has ALL Petitioner’s (and likely others) social security being levied?
Petitioner asks why is the Respondent acting seemingly arbitrarily against
Petitioner in taking or claiming ALL his social security living outside known and
standing laws?
74. Petitioner has an associate (as just one example) that has been having
only 15% of his social security garnished under 26 USC §6331 (h)(1), (P. vi) for over
10 years now for alleged back income tax debt, which Petitioner previously called to
the Respondent’s, and the lower court’s, attention, with no comment. Documented
proof is available.
75. The Respondent attempted levy of all of Petitioner’s Mother’s Social
Security account he was named on, but was denied this levy by the bank and rules
it provided Petitioner on such garnishment. (Appendix H, Exhibit H).
76. Respondent also claims that they have the authority and right to levy all
Petitioner’s veterans disability compensation in the attempt to satisfy an alleged
tax debt, contrary to standing law, (26 USC 6334, P. vi), and this court’s case
precedent of Porter, (P. xx). This levy position by Respondent was challenged by the
U.S. Court of Appeals for the 10th Circuit’s remand order addressing the issue- 10th
Circuit Appeals Court case #16-1204, Reverse and Remand, (P. xxiv), but later still
upheld by the District Court on Respondent’s frivolous “payable to” argument.
77. Respondent reasoned (16-CV-00512 USDC, P. 10-12) that it was
authorized to levy ALL Petitioner’s VA compensation benefits, claiming that these
source “payable to” assets were protected, but that once the assets were in veteran’s
account, they were no longer “payable to” and were, thus, fair game for levy, citing
various supporting cases conflicting with this court’s case in Porter.
78. Of course, this destroys the spirit of the original intend to protect
America’s veterans. To suggest that the Respondent or courts can play word games
with clear intent of statutes, and redefine meanings merely destroys what was
originally intended to be protected by this government and courts.
79. To believe that the Respondent can levy the entirety of an American’s
Page 28 of 35

living in an attempt to collect an alleged and unproven debt, thereby allowing the
complete elimination of any means for living, especially where alleged assessment
debt or pre-assessment document proof has not been provided or verified as a lawful
assessment, or where all business assets, (customer payments into any business
account for products ordered) can all be levied, is unconscionable.
80. Wherefore, Petitioner asks this court to consider a declaratory judgment
on the lawful authority for Respondent to levy the entirety of an American’s social
security assets or veteran’s benefits in an attempt to collect an unproven debt,
thereby allowing the complete elimination of any means for living, and for
Petitioner, or others similarly situated, to become a burden on society and
government services, or family or friends, (if available) just to survive, or remand
this issue for due process adjudication.
FIFTH CLAIM FOR RELIEF
DECLARATORY JUDGMENT FOUR ON PRIVATE AMERICAN’S ACCESS TO
THE GRAND JURY PROCESS, AND, TO CONVENE ONE OR MORE GRAND
OR SPECIAL GRAND JURIES DENIED PETITIONER
81. The American people have a logical and argued right of access to the
Grand Jury for alleged crimes, with the late Justice Scalia hammering the point
home in US. v Williams, (P. xxv). The “buffer or referee between the Government
and the peopM Justice Scalia spoke of is impossible if one of or more of the three
branches of government is interfering with jury access, and preventing some sort of
public access as is our constitutional public right and duty to maintain vigilance
over our public servants.
82. Petitioner has made multiple court requests for a grand jury investigation
into all evidence being suppressed herein, however the courts have erred in
dismissing the various Motions to Summons a Grand Jury.
83. In 18 U.S.C. § 4 (P. v) where it states “make known the same to some
judgS’, there is no preclusion for “any judge” of any court to empanel a grand jury
on claims made and evidence provided. This issue had nothing to do with asking
any court (as previously and erroneously argued) to “adjudicate” the claims made,
but to take note of alleged crimes and evidence as required under 18 and 42 U.S.C.,
Page 29 of 35

and to obey the law. Surely the evidence presented herein should also be presented
to a Grand Jury by this court (18 U.S. Code § 4 & 18 U.S. Code § 3332. P. v) even if
this court denies these constitutional questions being heard. The Grand Jury is a
last resort for justice and truth to be investigated and exposed in a true democratic
republic.
84. By what mechanism of law can the courts deny private Americans the
right to access the Grand Jury if the Grand Jury does not belong to any one of the
three branches and cannot be manipulated by them or any officer of these branches?
To accept the standing U.S. v Williams declarations regarding the Grand Jury is
prima facie evidence that there is, and should be, an obvious pathway for private
citizens to access the Grand Jury and NOT be manipulated by, or interfered with,
by any branch of government or branch officer opinions or prejudices.
85. Wherefore, Petitioner moves this court to declare the plain law and
process regarding Grand Jury access by private Americans, and to also convene one
or more Grand or Special Grand Juries under FRCP 1(a)(1), Fed. R. Crim.P. 6(a)(1),
(P. xih) U.S.C. 18 & 42, and U.S. v Williams, in the “interest-of-justice” component
of U.S.C. 28 § 1631, (P. vi) and decided on the constitutional merits. (Galloway
Farms, P. xiv).
CONCLUDING ARGUMENTS ON FACTS OF THE ISSUES
86. Unless we begin to bring government back under original intent of
Congress and our Founding Generation, the Rule of Law, and this court’s precedent,
our Republic will be completely consumed by the swamp, and will represent
something far worse than our Founding Generation fought against. We are either a
Constitutional Republic, or we have lost our way, our laws and Constitution, and
this court’s rulings have become meaningless and of no effect any longer.
87. There is no law or code that overrides constitutional protections of life,
liberty or property without due process ofla wand certainly not where validation of
debt has not been established or verified. Original intent is the focus and challenge
herein. This court’s stare decisis precedent presented clearly proves a different story
than what the Respondent is attempting to knowingly and wantonly, or
unwittingly, deceive the lower courts and this court with regarding Petitioner or all
Page 30 of 35

other Americans similarly situated. This court clearly, originally, aligned itself with
original intent, (Mattox v. U.S., P. xviii). The Respondent has shown willful
negligence in not providing answers and redress to simple questions, which it is
required to do, but has failed to do. ( U.S. v. La Salle N.B., P. xxiv).
90. Either the Respondent can answer the evidence, or it cannot, but
certainly they should be required to rebut and defend with evidence instead of being
allowed to walk freely away from the controversy with waiving rights to respond, or
by mere silence, and not be held accountable to the claims and evidence. Instead,
the Respondent is depending on the courts, (which are intended to be independent
from the other two branches of government, and an alleged separate power of our
government) to defend the Respondent, creating an air of bias against Petitioner,
and all Americans, by the lower courts, (Liteky v. US., P. xvii), and an apparent
willful collaboration to defraud appears between the separate powers in our
government.
91. How long does anyone continue believing in Santa Claus or the Easter
Bunny despite the clear lack of evidence for either? Why is this issue so hard for
mature, fair and just minded adults to grasp? If such standards are maintained for
this issue as with other game-changing issues of the past, we’d still believe the
earth is flat despite the clear evidence to the contrary that is now self-evident. As
already stated, this court is “free to act in a judicial capacity” (US. v. Morton Salt
Co., P. xxv) to correct this error, and justice demands this for Petitioner and all
Americans.
92. Newer case precedent (stare decisis) which counters this court’s original
stare decisis is relegating original standing case precedent of this court to the dust
bin of history, for expediency and continuation of Respondent fraud based on a
forgetful and a negligent lower court judiciary and the American public. Such lesser
and fraudulent precedent being allowed to stand unchallenged casts a shadow over
all courts, and renders AATTJ.S. Supreme Court decisions potentially moot. If such
standing case precedent is labeled “legally Mvoloud' by the Respondent and
supported by the lower courts, (or any future government agency or body that
doesn’t like Supreme Court findings...), or supported even by this court against its
Page 31 of 35

own precedent, what is to prevent any standing U.S. Supreme Court ruling from
being rendered useless and labeled “frivolous at will with any newer frivolous
precedent? Checks and balances must work properly but haven’t been for
considerable time on these issues.
93. What part of the U.S. Supreme Court case precedent, which is on point
herein, is “legally frivoloui’ and what makes it so? What part of constitutionally
guaranteed due process oflaw and right to jury is frivolous, and in what way? This
ignoring of, or dismissal of, standing case precedent is setting a dangerous
precedent that could undermine any number of past or future cases on the frivolous
and erroneous precedent alone. Certainly valid and meritorious “substantial
questions” and evidence have been raised, yet the Respondent and lower courts,
instead, parrot the “frivolous? mantra, and do not give a point by point rebuttal of
evidence and claims presented as required by due process.
94. The Internal Revenue Code is a maze of obfuscation and word-smithing,
admitted to by a previous IRS Commissioner (Shirley Peterson, P. xxi), and a
unanimous 2003 “House Concurrent Resolution 141.” (Not provided but available in
Congressional records at http://clerk.house.gov/evs/2003/rolll28.xml). In addition, a
1997 Government Accountability Office report, (P. xv) indicated that the GAO was
unable to determine whether the Respondent was routinely using lawful
enforcement practices or not. This is still unanswered by the Respondent but
evidence herein, and evidence in previous courts, strongly suggests the Respondent
is not using “lawful” enforcement practices, and is routinely violating the same
against Petitioner and all others similarly situated. Vetting must occur!
95. The costs to private Americans for just preparing the erroneous
income/wage tax forms run into billions of dollars per year, not counting the
trillions in this unproven wage tax to Americans. The costs to businesses yearly for
dealing with W2's, W4's, W9's, and being forced to act as unpaid withholding agents
for Respondent on wage taxes and such runs into the billions of dollars per year.
Imagine the relief and financial improvements to both in correcting this obvious
fraud? This court can help unite America on solid lawful grounds in these issues
which would provide immediate relief to millions of Americans and businesses, and
Page 32 of 35

restore confidence in the Judiciary, and confidence in justice and truth and the Rule
of Law.
96. The Respondent has not proven that American’s wages were taxed prior
to the 16th Amendment, or after the 16th Amendment, up to the WWII era, when the
“Victory Tax” was temporarily installed for the war effort, later repealed, but never
presenting this to the public after it. What better way to begin the “simplification”
of this mess then by finally bringing these issues herein to the table and allow the
Respondent the opportunity to rebut what is claimed by Petitioner and millions of
Americans and what this honorable court previously ruled on, and vet and correct
this ongoing egregious fraud and misapplication of the Rule of Law and standing
precedent for millions of Americans?
97. There are many other very questionable tangents involving the
Respondent, many of which were raised in the previous Tax Court, District and
Appeals Courts with many court sites and other significant self-authenticating
evidence, (and each can stand on its own merits). Petitioner strongly encourages
this honorable court with this very questionable and probative evidence to strongly
consider the evidence before it, and to begin a thorough vetting of an agency long
having a reputation for illegal activities.
98. Petitioner wants to focus herein on the most fundamental and basic
issues that cannot, in all good conscience, be refuted or ignored any longer, and
which is going viral to America. Millions already know of these Supreme Court
cases and the facts, and have removed themselves from the system and have not
engaged the Respondent. Petitioner had no choice but to engage and defend his life
and assets, and subsequently, other Americans similarly situated, using the
standing cases.
99. Petitioner prays this court will address this case to arrive at a lawftil
answer to the questions and conflicts. Petitioner has 1000's of pages of evidence of
correspondence and facts which cannot be presented herein. There are X-IRS
agents, tax experts and attorneys, and other groups who have written extensively
on these issues which support Petitioner’s position, but which are being suppressed
and not being allowed to be properly heard. The Respondent has routinely reneged
Page 33 of 35

on publicly answering when it stated it would, and even scheduled 2 or more public
answer sessions over the last 25 years, but at the last minute refused to address the
issues. Bad faith and failure to provide “Redress of Grievance” (1st Amendment).
100. Petitioner moves this court to consider carefully... what would a Jury of
Petitioner’s peers feel about such unlawful and egregious actions by the Respondent
against Petitioner, (or any American),... years of oppression and attacks without
having Petitioner’s arguments truly heard? Why has this been kept from any jury to
review over the decades? Petitioner maintains it is because anyone with a
reasonable and fair mind would immediately see the fatal flaws in the Respondent’s
position, and their silence on the facts. No rebuttal to this court’s standing case
precedent suggests the Respondent has no response that is lawfully valid or
credible.
101. This has caused severe financial and emotional damage to Petitioner
(and all others similarly situated), for years, and created a debt for Petitioner to
family and others, and loss of quality of fife and ability to carry on daily living for
mere survival, and created credit damage, (credit cards not paid, and credit
agencies reporting on Respondent hens and levies) and severely limiting the ability
to carry on life, business pursuits or obtain loans, which cannot be sustained as is.
This certainly raises these issues to an “injury in fact” (.Lujan v. Defenders of
Wildlife, P. xviii; Valley Forge Christian College v, Americans United, P. xxv) which
is clearly demonstrated, even in the mere ongoing threat to Petitioner, and others,
all these years, and provides convincing argument for judicial review. (5 U.S.C., §
702, P. v).
102.This controversy is ripe for adjudication, and all evidence considered to
once and for all determine whether U.S. Supreme Court case precedent is valid, or
it can be vacated at will by other government agencies or lower courts to allow a
fraudulent or hyper-inflated tax on all Americans.
103. Petitioner reserves his right to remedy and damages per previously filed
cases under Pacific Mutual Life Insurance Co. V Haslip, et al,No. 89-1279, and
what this court deems fair and just.
Therefore, this Petition for a Writ of Certiorari should be GRANTED, and
Page 34 of 35

requested declarations and relief to Petitioner, and all other Americans similarly
situated, be provided, posthaste.
Respectfully submitted,
Date: December 22, 2020

Jeffrey T. Maehr,
924 E. Stollsteimer Rd.,
Pagosa Springs, Colorado [81147]
(970) 731-9724
CC:

President Donald J. Trump
Acting U.S. Attorney General, Jeff Rosen

Page 35 of 35

